<html>
<title> - SCIENTIFIC ASSESSMENTS OF DECLINING PELAGIC FISH POPULATIONS IN THE CALIFORNIA BAY-DELTA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 SCIENTIFIC ASSESSMENTS OF DECLINING PELAGIC FISH POPULATIONS IN THE 
                         CALIFORNIA BAY-DELTA

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

           Monday, February 27, 2006, in Stockton, California

                               __________

                           Serial No. 109-40

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-462                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, February 27, 2006........................     1

Statement of Members:
    Cardoza, Hon. Dennis, a Representative in Congress from the 
      State of California........................................     5
    Miller, Hon. George, W., a Representative in Congress from 
      the State of California....................................     3
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     4

Statement of Witnesses:
    Armor, Chuck, Operations Manager, Central Valley Bay-Delta 
      Branch, California Department of Fish and Game.............     7
        Prepared statement of....................................     9
    Baxter, Randall D., Senior Biologist Supervisor, Long-Term 
      Monitoring, Central Valley Bay-Delta Branch, California 
      Department of Fish and Game................................     9
        Prepared statement of....................................    11
    Breuer, Rich, Environmental Program Manager, Chief 
      Environmental Water Quality and Estuarine Studies, 
      California Department of Water Resources...................    16
        Prepared statement of....................................    17
    Harlow, David L., Assistant Field Supervisor, Sacramento 
      Field Office, U.S. Fish and Wildlife Service...............    23
        Prepared statement of....................................    24
    Nobriga, Matt, Environmental Scientist, Aquatic Ecology 
      Sections, California Department of Water Resources.........    14
        Prepared statement of....................................    15
    Sommer, Dr. Ted, Environmental Scientist Supervisor, Chief 
      Aquatic Ecology Section, California Department of Water 
      Resources..................................................    18
        Prepared statement of....................................    20

Additional materials supplied:
    American Sportfishing Association, Statement submitted for 
      the record.................................................    51
    Miller, William (BJ), Consulting Engineer, Berkeley, 
      California, Letter and report submitted for the record.....    53
    Nelson, Daniel G., Executive Director, San Luis & Delta-
      Mendota Water Authority, Letter submitted for the record...    64
    Rosekrans, Spreck, Senior Analyst, Environmental Defense, 
      Letter submitted for the record............................    66


















    OVERSIGHT FIELD HEARING ON ``SCIENTIFIC ASSESSMENTS OF DECLINING 
         PELAGIC FISH POPULATIONS IN THE CALIFORNIA BAY-DELTA''

                              ----------                              


                       Monday, February 27, 2006

                     U.S. House of Representatives

                         Committee on Resources

                          Stockton, California

                              ----------                              

    The Committee met, pursuant to call, at 8:00 a.m. at the 
Port of Stockton, Rough and Ready Island, 315 Fyffe Avenue, 
Stockton, California, Hon. Richard W. Pombo [Chairman of the 
Committee] presiding.
    Present: Representatives Pombo, Radanovich, Miller, 
Napolitano and Cardoza.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order.
    Welcome to today's proceedings and I thank you for coming 
and being part of this very timely and important congressional 
hearing.
    I would like to welcome everyone to the Port of Stockton 
and first I want to thank the Port Staff for all of their help 
in setting up the hearing.
    I am pleased to see that so many of my colleagues from 
neighboring congressional districts and throughout California 
could make it this morning.
    I would also like to thank some of my constituents from 
Stockton and Lodi, who presented the invocation, the 
Presentation of the Colors, the Pledge of Allegiance and 
singing of ``God Bless America.''
    I'd like to welcome Fred Bentley, the chaplain of the 
American Legion, Karl Ross Post No. 60 in Stockton, who gave 
the invocation; the Lincoln High School Color Guard commanded 
by Lt. Commander Jasmine Mercer, who presented our Colors; and 
Dino Adame, the Post Commander of American Legion Karl Ross 
Post No. 16 who led the Pledge of Allegiance; also Brendan 
Kender, a 7th grader from Mokelumne River School in Lodi 
singing ``God Bless America.''
    I thank all of our presenters and performers for coming 
today and your participation is truly important to me. As a 
token of my appreciation, I'll present an American flag which 
has been flown over the U.S. Capitol to all of our presenters 
this morning. Thank you.
    We gather here today in Stockton to focus on the Delta. As 
we all know, the Delta has a multi-purpose value to our State. 
It's not only the largest estuary on the West Coast and the 
home of hundreds of animal and plant species, but it's also a 
vital source of drinking and irrigation water for two-thirds of 
California. We depend on the Delta--but the future of the Delta 
also depends on us and our actions.
    There are many issues surrounding the Delta. Last week, I 
surveyed the Delta with Senator Feinstein, our Governor and 
others to assess the need for levee improvements. It's clear: 
we are one earthquake or massive flood away from another 
Hurricane Katrina-like economic, environmental and social 
disaster. The time to act is now. Senator Feinstein and I are 
leaving no stone unturned to avoid a massive Delta levee 
failure and to have our governments be fully prepared if that 
ever happens.
    The Delta may be facing its own environmental nightmare as 
we speak though--and that's what the topic of today is. Some 
Delta fish species are at an all-time low but no one can 
responsibly say why. The easy way out is to finger-point to 
some policy or infrastructure hated by some groups. Throwing 
money at the cause-of-the-month will not get us anywhere 
either.
    As public servants, we owe it to everyone to ask the hard 
questions. We owe it to the American public to find scientific 
facts and not to invent fiction that has political appeal. 
Science, not politics, must be the basis of our environmental 
policies and responses.
    Today's hearing is about finding the scientific answers to 
why our Delta fish species are declining. We have some of the 
best and brightest biologists here who are tackling the issue 
before us. They are the ones with the on-the-ground credentials 
who will tell us what they've learned, continue to learn and 
where they're going. I'm especially glad to have worked 
cooperatively with my colleague, George Miller, on this witness 
list. The panel before us today represents our mutual belief 
that the need for science is truly bipartisan.
    We may not get all the answers today, but it will be a 
major step on the long road to resolution. In this year alone, 
this hearing will be the first of many to focus on the Delta's 
and California's many water problems. I look forward to working 
with my colleagues on this endeavor and thank the witnesses for 
being here today.
    I now would like to recognize Mr. Miller for his opening 
statement.
    [The prepared statement of Chairman Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Welcome to today's important hearing.
    We gather here today in Stockton to focus on the Delta. As we all 
know, the Delta has a multi-purpose value to our State. It's not only 
the largest estuary on the West Coast and the home of hundreds of 
animal and plant species, but it's also a vital source of drinking and 
irrigation water for two-thirds of California. We depend on the Delta--
but the future of the Delta also depends on us and our actions.
    There are many issues surrounding the Delta. Last week, I surveyed 
the Delta with Senator Feinstein, our Governor and others to assess the 
need for levee improvements. It's clear: we are one earthquake or 
massive flood away from another Hurricane Katrina-like economic, 
environmental and social catastrophe. The time to act is now. Senator 
Feinstein and I are leaving no stone unturned to avoid a massive Delta 
levee failure and to have our governments be fully prepared if that 
happens.
    The Delta may be facing its own environmental nightmare as we speak 
though--and that's what the topic for today is. Some Delta fish species 
are at an all-time low but no one can responsibly say why. The easy way 
out is to finger-point to some policy or infrastructure hated by some 
groups. Throwing money at the cause-of-the-month will not get us 
anywhere either. As public servants, we owe it to everyone to ask the 
hard questions. We owe to the American public to find scientific facts 
and not to invent fiction that has political appeal. Science, not 
politics, must be the basis of our environmental policies and 
responses.
    Today's hearing is about finding the scientific answers to why our 
Delta fish species are declining. We have some of the best and 
brightest biologists here who are tackling this issue before us. They 
are the ones with the on-the-ground credentials who will tell us what 
they've learned, continue to learn and where they're going. I'm 
especially glad to have worked cooperatively with my colleague, George 
Miller, on this witness list. The panel before us today represents our 
mutual belief that the need for science is truly bipartisan.
    We may not get all the answers today, but it will be a major step 
on the long road to resolution. In this year alone, this hearing will 
be the first of many to focus on the Delta's and California's many 
water problems. I look forward to working with my colleagues on this 
endeavor and thank the witnesses for being here today.
                                 ______
                                 

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman, and thank you for 
convening this hearing and to those presenters, thank you for 
your time to appear before us.
    When I requested this hearing on this topic last year, the 
population of the Delta smelt--a tiny fish that was once 
abundant here in the Bay-Delta--was at an all-time low after 
declining for many years.
    In the months since my request, the smelt population has 
continued to decline, and they are now apparently on track for 
the brink of extinction.
    As today's witnesses know, the smelt is a leading indicator 
of the Delta's overall health. When this fish is in trouble, it 
means the whole estuary is in trouble. And when we 
simultaneously see declines in the longfin smelt, the threadfin 
shad, and the young striped bass, we should act as if the 
future of the State depends on it, because as many of those in 
the audience know, the future of the State does depend on the 
Delta.
    More than 20 million citizens of California drink water 
from the Delta, from Contra Costa County to San Joaquin to Los 
Angeles. With increasingly poor water quality in the Delta, it 
is increasingly difficult, and expensive, for these communities 
to meet water quality standards.
    The State's commercial and sport fishing industries depend 
upon the Delta, as to hundreds of thousands of recreational 
fishermen. Between the Delta ecosystem crash and the ongoing 
threats to California's salmon and steelhead populations, our 
State's fisheries are in serious trouble, as are the businesses 
that count on them for their activities.
    Local farmers, not just the major irrigators further south, 
draw their water from the Delta, and Delta farmlands are harmed 
by poor water quality. The policy of the last 15 years, since 
the Central Valley Improvement Act and CALFED, has been to 
place the health of the Bay-Delta on equal footing with 
agricultural diversions. One of the questions today is whether 
or not that is, in fact, being carried out in reality. But if 
the Delta is in a tailspin, we need to determine if we can 
continue to increase diversions.
    A failing Bay-Delta estuary is not just an environmental 
problem. The Delta is the heart of California's river systems, 
its fisheries and when the Delta's vital signs are plummeting, 
it is a statewide crisis and we need to act accordingly.
    After a year of silence, this is the first time Congress 
has looked into what is currently happening in the Delta. But 
this should only be the first of several steps. In addition to 
talking to Federal and state agency scientists, we have a 
responsibility to discuss and implement policy. In addition to 
learning what has been done, we need to determine what should 
be done to protect the health of the Delta.
    For the benefit of all Californians who depend on the 
health of the Delta, we have a responsibility to find out what 
is killing the Bay-Delta and its fish, and we have an 
obligation to design appropriate solutions. And I look forward 
to hearing from our witnesses.
    The Chairman. Thank you. Now I'd like to recognize the 
Chairman of the Water and Power Subcommittee, Mr. Radanovich, 
for his opening statement.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman. I appreciate the 
fact that you're holding this hearing to investigate the health 
of the Bay-Delta and I will submit my statement for the record 
in the interest of moving the hearing forward. I do appreciate 
the fact that you're holding this hearing. Thank you.
    The Chairman. I'd like to recognize Congresswoman 
Napolitano for her opening statement.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Mr. Chairman. And thank you for 
hosting the hearing in this District. It's always a pleasure to 
come back and overview some of the work that is being done and 
as we debate the water problems here in California and that's 
really pretty much what we do is debate it. We always come back 
to the Delta. We all take from the Delta. We enjoy its beauty. 
We profit from it. We grow from its abundant water and we think 
we know it very well. And we do take it for granted.
    We always seem to be puzzled when things go wrong. Studies 
of planning and promises to protect the Delta have been going 
on for decades. And that's one of my major issues is where have 
all those studies been in the last several decades and 
especially as CALFED was supposed to be the answer to a lot of 
these problems and the money that was put into it for this 
research and being able to answer some of these questions. The 
State Water Board, the DWR, the Bureau of Reclamation, Fish and 
Game, Fish and Wildlife, everybody studies the Delta. And after 
all this time being under the microscope, you'd think we would 
know more than we do.
    I hope our witnesses this morning will tell us that the 
Delta is still keeping its secrets well hidden and how we are 
going to be able to find what is actually ailing it and be able 
to put our heads together and do the win-win instead of the 
finger-pointing and being able to work together to get this 
work continued.
    We thank the witnesses for taking their time to appear 
before the Committee and for their continued work for all of 
California, especially Southern California. And I must point 
out, I think I'm the only one here from Southern California. So 
take your barbs and take your shots at me, if you will. It's 
been going on before. I must remind you that a third of the 
population in L.A. County alone, so we do benefit from 
everything that you do up here and we certainly want to work 
with those that want to continue to keep the health of the 
Delta and the whole water delivery system.
    Thank you, Mr. Chair.
    The Chairman. Thank you, and I guess in response to your 
statement, whether or not you're the only one from Southern 
California, I think depends on your perspective. Many people in 
the room consider Mr. Radanovich and Mr. Cardoza from Southern 
California, too.
    I'd like to recognize Congressman Cardoza for his opening 
statement at this time.
    Mr. Cardoza. Mr. Chairman, after that last insult, I'm not 
sure I'm willing to talk.
    Ms. Napolitano. Insult, wait a minute.
    The Chairman. Actually, Congressman Cardoza shares San 
Joaquin County with me, so he goes all the way from here all 
the way to Southern California.

 STATEMENT OF THE HON. DENNIS A. CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. The folks in Fresno are going to have to start 
lobbying the Chairman on that.
    Mr. Chairman, Members, I want to thank you for calling this 
hearing today to receive scientific assessments from some of 
the key, state and Federal agencies regarding an issue that is 
troubling and compounding to us all.
    What is causing the decline in the California smelt and 
other fish populations is truly perplexing to me. Many have 
ideas about the cause and then quickly point a finger to an 
alleged culprit, the pumps. It's the pumps. It's the toxins. 
It's non-native species. It's the power plants. It's a decline 
in the food upon which these populations feed. Is it all those 
things put together?
    The state and Federal governments and the water agencies 
have spent valuable dollars and precious water and time 
implementing solutions that have yet to address the problem and 
result in healthy fish populations. Yet after years of 
restricted operations of Delta pumps and plentiful water 
supplies, instead of seeing improvements, the situation appears 
to be worse than before the so-called fixes were imposed. What 
we have to show for our efforts is a continued restricted water 
supply, economic impacts and all-time low populations of Delta 
fish.
    These findings have confounded many and have caused the 
experts to rethink some of their original theories. Looking 
back, if we have one lesson to learn is that we cannot allow 
notions or some popular belief to dictate our actions. Shutting 
down the pumps has wasted money, water and time. Any action 
that we take now or in the future to address these issues needs 
to be based upon well-founded science. We need to bring in the 
best scientists, many of them are here today, who really know 
and understand the Delta, to gather the data and conduct 
modeling and to ask the tough questions and answer those 
questions.
    Hopefully, we will have the benefit of some additional data 
and modeling despite having implemented solutions that haven't 
worked. I applaud the Chairman and Congressman Miller for 
working cooperatively and putting together today's hearing and 
for focusing today's hearing on science and not rhetoric. These 
are complex issues and I realize that we will not get all the 
answers today, but I look forward to hearing from our witnesses 
and hope to gain a better understanding of the science and of 
what additional information we may need in order to get on a 
course that has a sound, scientific footing.
    Thank you all for being here and sharing with us.
    The Chairman. Thank you. I'd like to introduce our panel of 
witnesses for today and then administer the oath.
    We have Mr. Chuck Armor, Operations Manager, Central Valley 
Bay-Delta Branch, California Department of Fish and Game; Mr. 
Randall Baxter, Senior Biologist Supervisor, Long-Term 
Monitoring, Central Valley Bay-Delta Branch, California 
Department of Fish and Game; Mr. Matt Nobriga, Environmental 
Scientist, Aquatic Ecology Section, California Department of 
Water Resources; Mr. Rich Breuer, Environmental Program 
Manager, Chief, Environmental Water Quality and Estuarine 
Studies, California Department of Water Resources; Dr. Ted 
Sommer, Environmental Scientist Supervisor, Chief Aquatic 
Ecology Section, California Department of Water Resources; and 
Mr. David Harlow, Assistant Field Supervisor, Sacramento Fish 
and Wildlife Office, U.S. Fish and Wildlife Service. Mr. Harlow 
is also accompanied by Dr. Mike Chotkowski, Fisheries 
Biologist, Scientific Support Branch, Mid-Pacific Region, U.S. 
Bureau of Reclamation.
    If I could have you all stand and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the statements made and the responses given will 
the whole truth and nothing but the truth, so help you God?
    [The witnesses were sworn.]
    Thank you, let the record show they all answered in the 
affirmative. I'd now like to recognize Mr. Armor to testify and 
just for the good of the witnesses, the timing lights that are 
on the table in front of you, what we normally do under the 
Committee process is your oral testimony is limited to five 
minutes. Your entire written testimony will be included in the 
record, but it helps to move the hearing along and so if you 
could try to abide by the five-minute rule in terms of your 
oral testimony. The yellow light will come on when you have a 
minute left, so that will be an idea as to how much time you 
have.
    So I recognize Mr. Armor first for his testimony.

 STATEMENT OF CHUCK ARMOR, OPERATIONS MANAGER, CENTRAL VALLEY 
    BAY-DELTA BRANCH, CALIFORNIA DEPARTMENT OF FISH AND GAME

    Mr. Armor. Good morning, Mr. Chairman and Committee 
Members. I would like to thank you for the opportunity to 
present the collaborative work we've been doing on the decline 
of pelagic species in the San Francisco estuary.
    In late December 2005, a small group of us were reviewing 
the data we had from our trawl surveys and we were very 
concerned about the numbers we were seeing for Delta smelt and 
young striped bass. And we asked the question is this problem 
just here or larger? We looked at a lot of the other long-term 
monitoring that IEP has been carrying out and then from that we 
concluded that not just two species, but four species of 
pelagic species numbers had shown severe declines and that this 
was limited mainly to the upper part of the estuary.
    By pelagic species, we're talking about fish that live in 
the water column, not on the bottom or along the shore line. So 
they're occupying kind of similar niches out there. We then 
drafted a white paper that described this decline and we gave 
some possible causes that could be leading to it. We then went 
and briefed all of the directors of the IEP, individually or in 
small groups, and they instructed us to develop a work plan and 
a budget to address this issue.
    We next formed a working group called the POD or Pelagic 
Organism Decline Management Team of which we're all members 
here. We set about developing this work plan and budget. The 
draft was presented to the directors on April 7th and it was 
also sent out to an independent peer review panel that was 
arranged for by the CALFED Science Program.
    We got the results back from the peer review. We modified 
and made a number of changes to the work plan. It was approved 
by the directors on June 2nd. We then instituted work at almost 
break-neck speed during the summer and moved a lot of contracts 
in record time to get this done. In October, the members of the 
POD Management Group, along with a group of outside experts met 
to synthesize all the information we learned into a report. 
This is what's referred to as the 2005 Synthesis Report. At the 
end of October this report was again submitted to an 
independent peer review panel for review by the CALFED Science 
Program.
    November 14th, we held a public workshop where we presented 
the results of our 2005 work. And this was held in Sacramento. 
We then developed the 2006-2007 work plan that included many of 
the peer-reviewer recommendations. We will be updating this 
work plan as we go along and we'll be including more, 
addressing more of the recommendations made by the Panel.
    On January 12th, the IEP directors approved the work plan 
and budget, so we're in full implementation mode right now. I 
do want to note that this has been an unprecedented response by 
the IEP agencies, especially at the director level to this 
issue. There's been a rapid movement from problem 
identification to reporting of results and this has included 
independent reviews, numerous meetings, briefings, press 
reports, etcetera and one public workshop and we'll have more 
public workshops as we go along to get the findings out.
    In 2005, our basic approach was a triage model. We had a 
sick patient. We didn't know all the symptoms and we wanted to 
know more about what was going on before we started putting 
forth cures. We partitioned the possible causes into three 
broad groups to help us conceptually. Those are toxins, flows 
and exports and food web/exotic species. We developed a 
conceptual model to help guide our work and we took a slightly 
different approach than in the past, that this model was more 
of an ecosystem approach, rather than a species centric 
approach. You can't solve a problem for one species. You have 
to solve the problem for the ecosystem.
    The budget was $1.7 million, shared equally between the 
state and Federal sources. Approximately $1 million of this 
went to new work by our academic collaborators.
    One thing I can tell you that we learned in 2005 is there's 
no simple answers, smoking gun to this. Most likely, there will 
be multiple causes that may vary by species and life stage. 
This is a tough problem.
    What we've learned is contained in the Synthesis Report 
that is available on the web. We developed a matrix model that 
tried to capture what we know and this is used to guide what 
work we'll do in the future. This combines stressors with time 
and location for each species. We also developed two narratives 
that you'll hear more about today and these is where we tie 
these very stressors to the observations. And also I want to 
tell you that there will be several more narratives coming 
along because they don't explain everything that we see going 
on out there yet.
    So in 2006, where are we headed? We're going to expand our 
existing monitoring program. In fact, we already have. We've 
already got that started. We're going to continue a lot of our 
on-going work. We're going to institute 15 new elements and new 
work for this year and there will probably be more as we go 
through the year. This is an adaptive process. As we learn, we 
modify what we're doing and where we're going and so we're not 
locked into one pathway. As we learn, we move, we adjust.
    The budget for this year, I'm over already, is $3.7 
million, 50 percent state and Federal. Along with this is $2.3 
million of CALFED grants that are for work that complements or 
adds to the POD efforts, so CALFED is stepping up also.
    I want to leave you with two quick points at the end here. 
First, we're refining the process for moving from data to 
information to synthesis to recommendations. And that there's 
been a strong commitment to make data and findings available as 
they arise. We're not going to wait until the end of the year. 
As we learn stuff, it's going to come up and it's going to be 
made public.
    Last, our data, reports and peer reviews are available on 
the internet. So with that I thank you for your time.
    [The prepared statement of Mr. Armor follows:]

Statement of Chuck Armor, Operations Manager, Central Valley Bay-Delta 
             Branch, California Department of Fish and Game

               Overview of Pelagic Organism Decline Work
I. History
    A. How problem was identified
    B. Actions taken
II. Basic strategy in 2005
    A.  Triage model
    B.  Possible causes
    C.  Developed conceptual model
    D.  Gathered and reviewed information
    E.  All suspected causes were on the table for review
    F.  Broad overview of work done
    G.  No simple answer
    H.  Workplan is a living document and is updated as new information 
becomes available
III. What have we learned
    A.  Will be subject of next speakers
    B.  Developed a matrix model to combine stressors with time and 
location for each species
    C.  Developed narratives that tied various stressors to 
observations
IV. What is ahead 2006 +
    A. Current and planned work
    B. Budget
    C. Process for data to information to synthesis to recommendations
    D. Data, reports and peer reviews available on Internet
         <bullet>  Trawl data--www.delta.dfg.ca.gov
         <bullet>  Report--HTTP://Science.calwater.ca.gov/pdf/
        workshops-
           ftp://ftp.delta.dfg.ca.gov/ (2005 Synthesis Report and 
        Appendix A)
                                 ______
                                 
    The Chairman. Thank you. I now recognize Mr. Baxter for his 
testimony.

STATEMENT OF RANDALL BAXTER, SENIOR BIOLOGIST SUPERVISOR, LONG-
 TERM MONITORING, CENTRAL VALLEY BAY-DELTA BRANCH, CALIFORNIA 
                  DEPARTMENT OF FISH AND GAME

    Mr. Baxter. Good morning, Mr. Chairman, Committee Members. 
Thank you for having me.
    My comments today will focus briefly on describing some of 
our abundance indices. I'll present 2005 abundance results and 
discuss some of the other measures of fish well-being that we 
collected in 2005 or developed in that period.
    The Interagency Ecological Program, or IEP, uses relative 
abundance indices to monitor the status of young fishes and 
zooplankton in the San Francisco Estuary. These aren't 
estimates of absolute population size, but instead are relative 
measures, meant to be compared against one another to depict 
population trends and changes over time. To gather this 
information we use the same sampling gear or sampling 
techniques to collect the organisms at the same locations, 
month to month and across years, so the data collected can be 
compared.
    IEP uses nets towed through the water column to capture the 
young fishes and zooplankton, providing information on their 
size and distribution as well as their abundance. Young fishes 
are targeted in their first year of life as indicators of that 
year's reproductive success and as early predictors of eventual 
trends in the adult population size. Zooplankton species are 
important diet components of these young fishes and are 
targeted as a means to examine their role in the survival of 
young fish during their first year of life.
    Long-term monitoring information from the fall midwater 
trawl is used primarily to monitor trends or has been used for 
quite some time.
    The Mysid-Zooplankton Survey captures zooplankton monthly 
year-round. And the monthly indices are broken into spring, 
summer and fall groupings and these seasonal indices track 
trends in food resources available to pelagic fishes.
    Our concern for pelagic fishes resulted from the 
observation that four species, all with slightly different life 
history traits, all exhibited low abundance in the 2002 to 2004 
period. At the same time, several species of copepods were 
observed in low abundance. This latter observation on 
zooplankton was partly due to a calculation error which has 
since been corrected.
    Our expectations for 2005 were for modest improvement in 
abundance for Delta smelt and striped bass based upon improved 
spring outflows. And we expected threadfin shad and the 
important copepods would do well in summer. We didn't expect 
winter spawning longfin to do particularly well, due to 
relatively low outflows in the winder and their abundance is 
well related to the magnitude of winter outflow.
    In the 2005 Fall Midwater Trawl Survey indices were below 
expectations for striped bass and Delta smelt. Striped bass 
improved, but remained at very low indices. Delta smelt were at 
record lows. Longfin smelt were close to record low abundance 
and although threadfin shad increased modestly, their abundance 
remained low also.
    The two copepod species, Eurytemora affinis and 
Pseudodiaptomus forbesi are important early foods and their 
contributions to these species, these fish species food 
resources were low in spring of 2005, but were very high by 
summer.
    In 2005, we collected information on fish diet, fish 
condition and growth. We wanted to know what fishes were 
currently eating and how much, and whether the diet and ration 
might be related to their condition, that is, the relative 
fatness or skinniness of fish at a particular size.
    Field collections for diet began in June, so only part of 
the year was sampled. Diets were determined for young striped 
bass, Delta smelt, threadfin shad and a species we used in 
comparison to the others, inland silverside which is still 
doing well in the estuary. Most individuals of all species had 
food in their stomach during the summer. Delta smelt were 
reliant on copepods for food, but ate a broad range of species. 
Striped bass were less reliant on these copepods and focused 
more heavily on mysids, shrimp and amphipods. Inland 
silversides, the species that's increasing in abundance, ate a 
broad variety of items including a more abundant recently 
introduced species called Limnoithona and terrestrial insects 
that were not found in high fractions in other species' diets.
    Fishes caught during the summer were in good shape weight-
wise. The condition of the four target species in 2005 tended 
to be the same or ``fatter'' when compared to recent years 2001 
to 2004.
    Initial investigations of fish growth focused on whether 
changes occurred coincident to the fish declines, between 2001 
and 2002. What we found was that striped bass and Delta smelt 
did not appear, their growth did not appear to decline after 
2001.
    That's the end of my testimony here. The last statement? 
That the growth rates of striped bass and did not appear to 
decline after 2001. So they're still growing well.
    [The prepared statement of Mr. Baxter follows:]

                    Statement of Randall D. Baxter, 
                 California Department of Fish and Game

    1.  My comments will focus on briefly describing some of our 
abundance indices. I'll present 2005 abundance results and discuss some 
of the other measures of fish well-being collected in 2005.
    2.  Interagency Ecological Program (IEP) uses relative abundance 
indices to monitor the status of young fishes and zooplankton in the 
San Francisco Estuary.
    These are not estimates of absolute population size, but instead 
are relative measures, meant to be compared against one-another to 
depict population trends and changes over time.
    To gather this information we use the same sampling gear and 
sampling techniques to collect organisms at the same locations month to 
month across years, the data collected can be compared across time to 
examine the patterns of change.
    3.  IEP uses nets towed through the water column to capture the 
young fishes and zooplankton, providing information on their size and 
distribution as well as abundance. Young fishes are targeted in their 
first year of life as indicators of that year's reproductive success 
and as early predictors of eventual trends in the adult populations. 
Zooplankton species are important diet components of young fishes and 
are targeted as a means to examine their role in the survival of young 
fishes.
    4.  Long-term monitoring fish information is from the Fall Midwater 
Trawl Survey collects fishes from September through December.
    5.  The Mysid--Zooplankton Survey captures zooplankton monthly 
year-round. The monthly information is combined into seasonal abundance 
indices for spring (March-May), summer (June-August) and fall 
(September-November), and these seasonal indices track trends in food 
resources available to pelagic fishes.
    6.  Our concern for pelagic fishes resulted from the observation 
that four fish species, all with slightly different life history 
traits, all exhibited low abundance 2002-2004. At the same time, 
several species of copepods, small zooplankton that form important 
components of the fishes' diets, were observed to be in low abundance 
also. This latter observation on zooplankton was in part due to a 
calculation error that has been corrected.
    7.  Our expectations for 2005 were for modest improvement in 
abundance for delta smelt and striped bass based upon improved spring 
river outflows and we expected that threadfin shad and the important 
copepods would do well in summer.
    We didn't expect winter spawning longfin smelt to do particularly 
well, due to relatively low winter outflows (their abundance is well 
related to the magnitude of winter outflow).
    8.  Similarly, the 2005 Fall Midwater Trawl Survey species indices 
were also below expectations for striped bass and delta smelt (see 
Figure 1):
          <bullet>  Striped bass improved but remained in very low 
        abundance.
          <bullet>  Delta smelt were at record low abundance.
          <bullet>  Longfin smelt were close to record low abundance.
          <bullet>  Threadfin shad increased modestly, but remained in 
        low abundance.
    9.  Two copepod species, Eurytemora affinis and Pseudodiaptomus 
forbesi, are important early foods for all upper Estuary fishes.
    The contributions of theses two species to fish food resources were 
low in spring 2005, but were very high by summer.
    10.  In 2005, we collected information on fish diet, condition and 
conducted growth analyses based upon changes in length. We wanted to 
know what fishes were currently eating and how much, and whether diet 
and ration might relate to their condition (that is, their relative 
fatness or skinniness).
    11.  Field collections for diet and condition began in June, so 
only a part of a year was sampled. Diets were determined for young 
striped bass, delta smelt, threadfin shad and inland silverside.
          <bullet>  Most individuals of all species had food in their 
        stomach
          <bullet>  Delta smelt were very reliant on copepods for food, 
        but ate a broad variety of species.
          <bullet>  Striped bass were less reliant on copepods and 
        focused more heavily on larger ``shrimp-like'' mysids and 
        amphipods.
          <bullet>  Inland silversides, a species increasing in 
        abundance, ate a broad variety of items including more 
        Limnoithona than others and terrestrial insects not found in 
        other diets.
          <bullet>  The copepod Pseudodiaptomus was important to all.
    12.  Fishes caught during the summer were in good shape weight-
wise. The condition of the four target fishes (delta smelt, striped 
bass, threadfin shad, inland silverside) in 2005 tended to be the same 
as or ``fatter'' when compared to data from recent years 2001-2004.
    We did have some data from 2003 and 2004 indicating regional 
differences in striped bass condition. These will be discussed in 
conjunction with an upcoming presentation about 2006 hypotheses.
    13.  Initial investigations of fish growth focused on whether 
changes occurred coincident with fish declines; that is we compared 
growth rates from 2001 and prior year with those of 2002-2004.
          <bullet>  Growth rate of striped bass and delta smelt did not 
        appear to decline after 2001.

    [Figure 1 follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    
                                 ______
                                 
    The Chairman. I'd like to recognize Mr. Nobriga for his 
testimony.

  STATEMENT OF MATT NOBRIGA, ENVIRONMENTAL SCIENTIST, AQUATIC 
   ECOLOGY SECTIONS, CALIFORNIA DEPARTMENT OF WATER RESOURCES

    Mr. Nobriga. Thank you Chairman Pombo and thank you to the 
rest of the Committee as well.
    The focus of my comments will be on briefly describing what 
we're calling the ``Bad Suisun Bay hypothesis'' which is our 
conceptual model of how the Suisun Bay region which on the map 
is depicted in green and sits in between San Francisco Bay 
proper and the Delta, has potentially become a less suitable 
nursery habitat for fish.
    Suisun Bay was historically an important fish nursery for 
the estuary. And just meaning that a lot of fish used it to 
feed and grow. Species introductions have changed the Suisun 
Bay food web. A clam has had the largest known effect, greatly 
reducing the overall productivity for the pelagic environment, 
basically by stealing it for itself. Introductions of various 
small shrimp-like animals that are eaten by young fishes have 
further changed the pathways from primary algae productivity to 
fishes.
    So the hypothesis itself is due to these known changes and 
possibly others. Suisun Bay is a less suitable nursery habitat 
than it used to be.
    The written testimony includes some examples from our 
synthesis report this past year, showing trends in algae, mysid 
shrimp which is a food of young striped bass and young striped 
bass themselves and you can see the abundance of all of them 
went down considerably and has stayed down every since in the 
late 1980s when the clam basically carpeted Suisun Bay's 
substrate.
    The investigation or the POD investigation is largely 
designed to understand this better and to understand it 
quantitatively. We know the clam has an effect on fish and fish 
food abundance and we see some fish responses. Randy mentioned 
condition factor which is a relative robustness versus thinness 
of fish.
    We've seen signs of disease or malnourishment in fishes 
collected there. Abundances are down. The sizes of certain 
species in the fall are down. Those are presumed effects of the 
clam and possibly other things operating in the nursery 
habitat, but both of these effects need to be quantified and 
put into the big picture context in terms of synthetic analyses 
and mathematical models, basically to allow us a predictive 
ability to weight costs and benefits of alternative management 
strategies and we haven't developed that yet, but that is in 
the plan to do.
    In addition, there are other facts besides the clam and 
other introduced species in the food web that may also be 
contributing to a reduced nursery value and we will investigate 
these as well. Toxic insults, changes in habitat area, effects 
of power plants that are along the shoreline in Suisun Bay, the 
relevance of these latter factors we don't really know. It 
needs to be determined before we would know whether we even 
need to factor them into mathematical models to predict, to 
accurately predict Suisun Bay fish production.
    Once again, the hypothesis is pretty straight forward and 
simple and is a major part of our efforts and that is due to 
the known changes in the nursery area and possibly others. 
Suisun Bay is a less suitable nursery habitat than it used to 
be. And once again, thank you for the opportunity to speak 
today.
    [The prepared statement of Mr. Nobriga follows:]

                      Statement of Matt Nobriga, 
                California Department of Water Resources

    The focus of my comments will be on briefly describing the ``Bad 
Suisun Bay hypothesis'' which is our conceptual model of how this 
region may have become a less suitable fish nursery.
Background
    <bullet>  Suisun Bay was historically an important fish nursery 
meaning a lot of young fish used it to feed and grow
    <bullet>  Species introductions have changed the Suisun Bay 
foodweb; a clam has had the largest known effect, greatly reducing 
productivity. Introductions of various small shrimp-like animals eaten 
by young fishes have further changed the pathways from primary 
productivity to fish.
    <bullet>  The hypothesis: Due to these known changes, and possibly 
others, Suisun Bay is a less suitable nursery than it used to be.


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


The investigation
    <bullet>  The clam has a known effect on fish and fish food 
abundance
    <bullet>  The fish responses (condition factor, histopath, relative 
abundance, lower fall sizes, etc.) are presumed effects
    <bullet>  Both of these effects need to be quantified and put into 
the context of synthetic analyses and mathematical models to provide a 
predictive ability for weighing the costs and benefits of alternative 
management strategies.
    <bullet>  There are other factors besides clams and introduced 
species that may also contribute to reduced nursery value. We will 
investigate these as well: toxins, changes in habitat area, and power 
plant effects. The relevance of these latter factors needs to be 
determined before we know whether they need to factor into synthetic 
analyses and models to accurately predict Suisun Bay fish production.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Breuer.

STATEMENT OF RICH BREUER, ENVIRONMENTAL PROGRAM MANAGER, CHIEF 
 ENVIRONMENTAL WATER QUALITY AND ESTUARINE STUDIES, CALIFORNIA 
                 DEPARTMENT OF WATER RESOURCES

    Mr. Breuer. My thanks to the Panel for allowing me to speak 
today. I'll be discussing the potential role contaminants play 
in the pelagic fish decline.
    First, I'd like to make several points. As mentioned in the 
other talks, contaminants, if they do play a role in the 
declined, it's believed that several other stressors are 
working in concert to create the decline. In other words, it 
would not be the sole causal agent.
    For the first phase of the POD investigations, the 
contaminant studies were the most difficult to execute due to 
the complexities of toxicity and tissue testing. Therefore, 
most of the results are preliminary or testing is still going 
on.
    For 2005, we focused on looking at the health of the fish 
themselves. So we looked at the tissue analysis, specifically, 
histopathology which is evaluating the livers of Delta smelt 
and striped bass. We also performed aquatic toxicity testing, 
where we exposed test organisms to Delta waters. We also did 
literature searches on pyrethroids, an insecticide and we also 
on the aquatic herbicide use in the Delta. We also investigated 
microcystis which is an invasive blue-green algae which is 
known to have toxicity in certain locations. We conducted 
testing and also there was a white paper.
    For our findings for 2005, on the fish tissue analysis, we 
looked at the health of the livers of captured Delta smelt as 
well as historical archival samples. Analysis is still ongoing, 
but preliminary results showed significant liver lesions 
indicative of an ecosystem stressor. The problem is you can't 
distinguish between contaminates or food limitation.
    The toxicity tests, this was six months of testing at 
limited sites. We saw reduced growth and survival for the 
indicator species, hyalella azteca, but not for the water flea 
which is seradaphnia dubai, nor did we see effects on Delta 
smelt or striped bass.
    Pyrethroids investigation, the use is growing in 
California. It's replacing the traditional organophosphates 
insecticides. The challenge with the pyrethroids is that 
they're not easily found in the water column. They bind tightly 
to suspended particles such that testing the water is not 
adequate. So the route of exposure is more challenging to 
understand and we'll be working on that in additional studies.
    For the aquatic herbicides, our investigation showed that 
they are not suspected based on our preliminary investigations. 
There is some concerns over the additive used when aquatic 
herbicides are used such as surfactants. And last, microcystis, 
the studies are still in progress. We're waiting on a chemical 
analysis and tissue analysis. The consensus is no, at this 
point it's not a primary reason for the decline.
    For 2006, 2007, we'll be focusing on a fish up approach. 
That means we're focusing on the toxicity tests for the fish 
and the indicator species. We'll be looking at hyalella. We'll 
be studying it over 12 months, plus more sites than we did in 
2005. We'll also be looking at Delta smelt and striped bass in 
these aquatic tests.
    If toxicity is observed, we move into what's called TIE, 
toxicity identification evaluation. That's a process through 
which we identify the contaminant or contaminants that are 
causing the effect.
    If toxicity is observed we'll combine this effort with what 
we call the watershed down approach where information from 
Department of Pesticide Regulations, State Water Resources 
Control Board, Regional Boards and other researchers, help 
determine what contaminants could be present and what time and 
place.
    We'll also continue the histopathology work as well as work 
with CALFED Science to assemble an expert panel on the use of 
these biomarkers such as histopathology to determine the 
population effects from the presence of such biomarkers.
    And last, microcystis work will also continue to evaluate 
the spread of the algae and its possible toxicity.
    That concludes my testimony. Thank you.
    [The prepared statement of Mr. Breuer follows:]

Statement of Rich Breuer, California Department of Water Resources, and 
        Chief, Environmental Water Quality and Estuarine Studies

             Contaminants And the Pelagic Organism Decline
2005 Studies
    <bullet>  Pelagic Fish Tissue Analysis (Fish Health)
    <bullet>  Aquatic Toxicity Testing
    <bullet>  Pyrethroids (Insecticide) White Paper
    <bullet>  Aquatic Herbicide Use and Toxicity White Paper
    <bullet>  Microcystis (Algae) Toxicity Testing and White Paper
2005 Results
    <bullet>  Fish Tissue Analyses
        Showed liver damage
    <bullet>  Toxicity Tests
        Reduced Growth and Survival for Indicator Crustacean
        Not for Water Flea, Smelt, or Bass
    <bullet>  Pyrethroids Class of Insecticides--Use Growing
    <bullet>  Aquatic Herbicides--
        Not Suspected
        Concern over Additives--such as Surfactants
    <bullet>  Microcystis--Studies in Progress


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                                 ______
                                 
    The Chairman. Thank you.
    Dr. Sommer?

 STATEMENT OF TED SOMMER, ENVIRONMENTAL SCIENTIST SUPERVISOR, 
 CHIEF AQUATIC ECOLOGY SECTION, CALIFORNIA DEPARTMENT OF WATER 
                           RESOURCES

    Mr. Sommer. Thank you, Mr. Chairman, Committee Members. I'm 
here to talk about the winter salvage hypothesis which focuses 
on Delta operations and hydrology and first I want to remind 
everyone how complex the Delta really is. We have fairly strong 
seasonal and annual variation and flow. We also have pretty 
strong tidal effects. A lot of people think of the Sacramento 
River or San Joaquin as rivers in this region and they're not. 
They're strongly influenced by the ocean's tides.
    And in addition to that, we have strong operational 
effects. We have upstream dam effects on Delta channels, water 
diversions like the State Water Project and the CVP and South 
Delta barriers.
    In evaluating the effect of operations and hydrology, the 
POD team first looked at some of the patterns in tributary 
flows and one of the first things that we noticed was in the 
period since 2000, there's been relatively high Sacramento 
River flow and low San Joaquin River flow.
    The other pattern that we noticed was that state water 
project and CVP exports have generally increased since 2000. 
They're not at levels that we haven't really seen in the past, 
but again, there has been a general increase in recent years.
    Perhaps more interesting, the seasonal pattern of exports 
has changed substantially in recent years. For example, there's 
increased winter exports, reduced spring exports and increased 
summer exports. And all of these changes are consistent with 
the 1994 Bay Delta Accord.
    And finally, the South Delta barriers have been operated 
for longer periods or longer duration.
    So what does all this mean for fish species? It's difficult 
to assess for fish. One of the ways we have of measuring this 
is fish that are salvaged at the CVP and State Water Project 
fish screens. The number of fish collected at these fish 
screens is used as a crude measure of water project effects. We 
call it technically fish entrainment.
    The figure I provided in testimony provides evidence of the 
patterns in Delta smelt salvage, particularly since 2000. And 
since 2000 when we look at the winter salve of Delta smelt 
which are the adult spawners, we see that there's been an 
increase in salvage of these fish.
    And the high salvage levels remain high even after we 
correct for the higher pumping levels that I mentioned in 
winter. And last, winter salvage was especially high 
considering how low the Delta smelt population has been in the 
Delta.
    In addition to that, we looked at similar pattern for the 
other pelagic species, striped bass, longfin smelt and 
threadfin shad and each shows a similar pattern.
    So this brings us to the winter salvage hypothesis. Have 
increased winter exports adversely affected the pelagic fishes? 
We will have a lot of questions that we need to answer over the 
next coming couple of years. The first question is are the data 
that we've been looking at a result of some sort of data error?
    As Randy mentioned, occasionally, there are errors in our 
data bases that do affect our interpretation. If this isn't an 
effect of data error, we need to evaluate what the mechanisms 
may be for increased winter salvage. Are there hydrodynamic 
effects? Are these the result of problems with fish health? Or 
has the habitat in the south or central Delta changed in some 
way?
    We also need to do some long-term comparisons. Are the 
recent patterns similar to what occurred during the 1980s or 
early 1990s.
    And finally, and perhaps most importantly, could winter 
fish losses at the pumps have population level effects on 
pelagic fishes? In contrast to the information presented on the 
bad Suisun hypothesis presented by my colleague, Matt Nobriga 
where we see very clear effects of an invasive species and 
previously, we've also seen clear effects with flow in the 
system, assessing the effects of experts is a much more 
difficult proposition.
    Thank you.
    [The prepared statement of Dr. Sommer follows:]

                     Statement of Dr. Ted Sommer, 
                California Department of Water Resources

     Delta Operations and Hydrology: The Winter Salvage Hypothesis
Background
    <bullet>  Delta hydrology is complex
      <all>  Inflow: Seasonal and annual variation
      <all>  Tidal effects.
    <bullet>  How operations affects hydrology.
      <all>  Upstream dam operations.
      <all>  Water diversions.
      <all>  South Delta barriers.
Recent Changes in Delta Operations and Hydrology
    <bullet>  The period since 2000 has had relatively high Sacramento 
River flow and low San Joaquin River flow (Figure 1).
    <bullet>  SWP and CVP exports have generally increased since 2000 
(Figure 2).
    <bullet>  The seasonal pattern of exports has changed in recent 
years (Figure 3).
      <all>  Increased winter exports.
      <all>  Reduced spring exports.
      <all>  More summer exports.
    <bullet>  South Delta barriers have been operated for longer 
periods.
Trends in Fish Salvage
    <bullet>  Fish are salvaged at SWP and CVP fish screens.
    <bullet>  The number of fish collected is used as a crude measure 
of project effects (``entrainment'').
    <bullet>  Patterns in delta smelt salvage since 2000 (Figure 4).
      <all>  Winter salvage of adult delta smelt (the spawning stock) 
has increased substantially.
      <all>  Winter salvage was relatively high even after 
``correcting'' for higher pumping rates.
      <all>  Winter salvage was especially high considering the low 
smelt population in the delta.
    <bullet>  The other pelagic fishes (striped bass, longfin smelt, 
threadfish shad) showed a similar pattern of increased winter salvage.
The Winter Salvage Hypothesis
    <bullet>  Have increased winter exports adversely affected pelagic 
fishes?
Follow-Up Studies
    <bullet>  Are the salvage results a result of data error?
    <bullet>  If not, what are the mechanisms responsible for increased 
winter salvage?
      <all>  Hydrodynamic effects?
      <all>  Fish health?
      <all>  Habitat changes?
    <bullet>  Is the recent pattern similar to that occurring in the 
late 1980s and early 1990s?
    <bullet>  Could winter fish losses at the pumps have population 
level effects on pelagic fishes?



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 ______
                                 
    The Chairman. Thank you.
    Mr. Harlow.

    STATEMENT OF DAVID HARLOW, ASSISTANT FIELD SUPERVISOR, 
  SACRAMENTO FISH AND WILDLIFE OFFICE, U.S. FISH AND WILDLIFE 
 SERVICE; ACCOMPANIED BY MIKE CHOTKOWSKI, FISHERIES BIOLOGIST, 
 SCIENTIFIC SUPPORT BRANCH, MID-PACIFIC REGION, U.S. BUREAU OF 
                          RECLAMATION

    Mr. Harlow. Thank you, Mr. Chairman, Members of the 
Committee. My name is David Harlow. I'm the Assistant Field 
Supervisor of the Fish and Wildlife Service, office in 
Sacramento, under the supervision of the California-Nevada 
Operations Office, which is headed up by Steve Thompson who 
regrets that he could not be here today.
    I'm joined by my colleague from the U.S. Bureau of 
Reclamation, Dr. Mike Chotkowski. He is the representative from 
the Department of the Interior on the Pelagic Decline Work Team 
and is the lead for that team looking at historical population 
trends and fisheries.
    My written testimony was submitted to the Committee so I 
will not repeat it this morning. Instead, I'll draw your 
attention to three key points I'd like to stress. First, as 
you've heard, the current decline of numerous pelagic organisms 
in the Delta is a very complex issue. Exhaustive studies are 
being undertaken by the gentleman at the table and many others, 
assisted by many knowledgeable experts from academia and the 
private sector. All are working very hard to determine causes 
and find solutions, but it is unlikely that there will be a 
simple solution to the problems of such a complex ecosystem.
    For this reason, my second point is the Fish and Wildlife 
Service is revising its Delta Navy Fishes Recovery Plan, using 
new information that has been developed since the approval of 
that plan in 1996 and is continuing to be developed.
    We'll be working with many of our partner agencies to 
assemble a recovery team consisting of qualified, governmental 
agency, academia and stakeholder representatives. The scope of 
the revision will include at a minimum updating the biological 
information in the plan, reviewing and possibly revising 
recovery goals and identifying recovery implementation actions.
    And third, I'd like to provide our perspective on the topic 
of the south of Delta export pumping and the effects to Delta 
smelt. Although the effects of entrainment losses at the pumps 
have been implicated in the population decline of Delta smelt, 
particularly in the South Delta, it is apparent that other 
causes, such as non-native invasive species, environmental 
contaminants and changes in food supply may also be a limiting 
species recovery. Accordingly, it is unlikely that reduction of 
export pumping alone would be sufficient to bring about 
recovery.
    The Service, along with the California Department of Fish 
and Game, National Marine Fisheries Services, U.S. Bureau of 
Reclamation and the California Department of Water Resources, 
addressed pumping effects with an adaptive management program 
included within the two projects' operations. When protective 
actions for Delta smelt at the export pumps are undertaken by 
the five agencies, the actions are based on the latest 
hydrological conditions and fisheries status and distribution.
    Results of investigations of these recent investigations 
are provided to agency managers on a regular basis and 
considered in decisionmaking. These five agencies confer at 
least weekly, at several different levels before making 
decisions. And we are in close communication with our senior 
management within the agencies on a regular basis.
    With that, I'll conclude my remarks and save any time for 
Dr. Chotkowski, if you have any questions about the analyses 
that he's performing.
    Thank you, Mr. Chairman, and Members of the Committee.
    [The prepared statement of Mr. Harlow follows:]

     Statement of David L. Harlow, Assistant Field Supervisor for 
 Conservation, Restoration and Contaminants, Sacramento Field Office, 
       U.S. Fish and Wildlife Service, Department of the Interior

    Good Morning, Mr. Chairman. My name is David Harlow, and I am the 
Assistant Field Supervisor for Conservation, Restoration and 
Contaminants in the Sacramento field office of the U.S. Fish and 
Wildlife Service (Service). I am pleased to be here today on behalf of 
the Department of the Interior to discuss the status of declining 
pelagic fish populations, in particular the delta smelt fish 
population, of the California Bay-Delta.
    I will focus my testimony on two areas--first, a brief overview of 
the status of the delta smelt, and, second, how the Service and our 
partner agencies are responding to the recent severe downward trend in 
the delta smelt's population, using the results of new research into an 
adaptive management approach to address delta smelt population limiting 
factors.
    Much of the focus of my testimony is on the delta smelt, but it is 
important to note that while we cannot conclude definitively, we do 
fear that the status of this species may be symptomatic of the 
condition of the Bay-Delta ecosystem as a whole. The environmental 
conditions of the Delta are extremely complex and, in light of this, 
the cause and effect relationship between and among varying factors are 
not well-understood at any level. As a result, the only thing we know 
with certainty is that there will be no simple solutions to the 
problems of such an important ecosystem.
Status Overview
    The Service has been involved in the efforts to address the decline 
of the delta smelt since its listing under the Endangered Species Act 
as threatened in 1993. Subsequently, the delta smelt was listed as 
threatened under California's State Endangered Species Act on December 
9, 1993.
    In 1996, the Service completed the Sacramento-San Joaquin Fisheries 
Recovery Plan, which included recovery goals for the delta smelt. To 
consider delisting the delta smelt, specific abundance and distribution 
criteria must be met during a five year period.
    On August 2003, pursuant to court-approved settlement agreements 
with the California Farm Bureau Federation, the San Luis & Delta 
Mendota Water Authority, and other groups, the Service commenced a 5-
year review of the status of the delta smelt. When the Service 
completed a 5-year review in March 2004, we concluded that delisting 
was not warranted as the species continued to be threatened with 
extinction. However, because of information obtained during this 5-year 
review, the Service is undertaking a revision of the 1996 recovery 
plan.
Response to Recent Decline in Delta Smelt
    Most of the potential threats to the delta smelt and other Delta 
pelagic organisms which have been identified will be addressed in 
detail by other speakers today. I would like to mention that exhaustive 
studies are being undertaken by the Interagency Ecological Program, 
assisted by many knowledgeable volunteers from academia and the private 
sector who share concerns about the status of the Bay-Delta ecosystem. 
Included among them are my colleague, Mike Chotkowski, Fishery 
Biologist with the Department's Bureau of Reclamation, who is here with 
me to answer question related to work he has performed as part of the 
2005 Pelagic Organism Decline investigation package.
    Because of the changing situation in both the condition of the 
delta smelt population and evolving research, the agencies responsible 
for delta smelt management have developed an adaptive management 
approach enabling us to rapidly address new information and apply it to 
measures aimed at addressing the decline. Also, the Service and others 
assisted the California Departments of Water Resources and Fish and 
Game in preparing the Delta Smelt Action Plan which specifically 
addresses actions that have been or could be taken by resource agencies 
which are designed to further research needs and reduce population 
decline. A few examples of actions to reduce population decline include 
planning restoration actions for the Delta, Suisun Marsh, and San Pablo 
Bay that are intended to improve habitat conditions for smelt and other 
State and federally-listed and candidate species.
    We are also actively involved in efforts to identify other 
environmental risks and possible corrective actions. I would like to 
provide the Service's perspective on one topic that generates a lot of 
attention--water export pumping from the Delta. Although the effects of 
entrainment losses at the pumps have been implicated in the population 
decline of delta smelt, particularly in the south Delta, it is apparent 
that other causes such as non-native species, contaminants, and changes 
in food supply may also be limiting species recovery. Accordingly, it 
is unlikely that reduction of export pumping is sufficient alone to 
bring about recovery.
    In 2005, the Service's biological opinion on the operations of the 
Central Valley Project and State Water Project concluded that, with the 
adaptive management program agreed to by the operating agencies, the 
Service, U.S. Bureau of Reclamation, California Department of Water 
Resources, California Department of Fish and Game, and National Marine 
Fisheries Service have the ability to address pumping effects within 
existing operational criteria and assets. The Operations Plan includes 
the implementation of the Delta Smelt Risk Assessment Matrix (DSRAM). 
This matrix guides the recommendations of the Delta Smelt Working 
Group, which is composed of agency scientists who are actively involved 
in the ongoing research and management of delta smelt. Three of the 
panel members here today are members of the group.
    The Working Group is specifically set up to review all available 
information and advise the Service on implementation of actions that 
can be taken to minimize effects of export pumping on the species. This 
information, along with substantial other data and expert opinion, is 
reviewed by the Water Operations Management Team (WOMT). This team is 
composed of management level representatives from the Service, Bureau 
of Reclamation, National Marine Fisheries Service, California 
Department of Water Resources, and California Department of Fish and 
Game. The team has several adaptive water management tools that can be 
used to help protect delta smelt including, but not limited to, the 
Environmental Water Account and water available from the Central Valley 
Project Improvement Act, commonly known as B(2) water.
    With the high level of concern for the delta smelt population, the 
Working Group has recommended to the Service and the WOMT agencies that 
water management actions to protect pre-spawning adults and larvae from 
entrainment be given the highest priority. Export reductions taken to 
protect adults are intended to avoid or minimize losses of adults 
before they have the opportunity to spawn, typically in late winter. 
After the fish have spawned, subsequent reductions to protect larvae 
are intended to maximize recruitment by affording young fish the 
opportunity to move out of the Delta where they were hatched and into 
their rearing areas in Suisun Bay and Marsh.
    Under the current adaptive management process for water project 
operations, decisions regarding operations must consider many factors, 
including public safety, water supply reliability, cost, as well as 
regulatory and environmental requirements. The first step is data 
collection, including the routine collection of hydrologic data by the 
California Department of Water Resources, Bureau of Reclamation, and 
U.S. Geological Survey. The Pelagic Organism Decline work team also 
provides input to the water operations decision-making process through 
regular updates. Using that data, the Data Assessment Team (DAT) and 
the Delta Smelt Working Group (DSWG) can recommend a change in Project 
operations, which is forwarded to the WOMT.
    The decision-making agencies also try to inform and advise major 
interests that may be affected when they are making a particularly 
challenging decision about water operations. The WOMT considers the 
recommendation and seeks consensus on potential actions. WOMT may adopt 
or modify the recommendation and may direct that the Environmental 
Water Account and water available under the Central Valley Project 
Improvement Act be used to implement an export reduction. For 
particularly controversial recommendations, state and federal agency 
leaders engage in the decision-making process. Decisions regarding 
changes to Project operations often must be made quickly if they are to 
be effective. The Bureau of Reclamation and California Department of 
Water Resources then implement the export reduction as prescribed. 
Implementation can occur within a three-hour turn-around, if necessary.
Conclusion
    Recovery of the delta smelt continues to be a high priority for the 
Service. Our knowledge of this species and its needs continues to 
increase almost daily. We are working closely with our partner agencies 
to make real-time management decisions consistent with our adaptive 
management approach to water operations. We intend to update our 
recovery strategies as quickly as the science becomes available. In 
particular, the Service plans to revise the delta smelt recovery plan 
in the near future to incorporate new scientific information that is 
the result of the extensive studies now underway and new information 
developed since the approval of the current recovery plan in 1996.
    Mr. Chairman, this concludes my remarks. Thank you for the 
opportunity to appear before you today, and I will be happy to answer 
any questions that the Committee may have on this important issue.
                                 ______
                                 
    The Chairman. Thank you. I thank all of you for your 
testimony.
    I think to begin with, to Mr. Armor, you talked about the 
steps that you're going to go through in the upcoming year and 
one of the things you mentioned was a list of recommendations 
or recommendations that would be coming out.
    Do you have an approximate time as to when those 
recommendations will be ready?
    Mr. Armor. No, I don't. First, we have to, as you heard, we 
need to build models. We need to get the data so we can build 
models and actually suggest, if we do this, here's where we'll 
end up. We're not there yet. I can't tell you when those 
recommendations are going to be forthcoming.
    I can tell you that our directors have impressed the need 
to get information to them so that a decision can be made to 
get recommendations to them as quickly as possible because 
there are a number of very critical water decisions, water 
development decisions that are in abeyance right now, waiting 
for us to come with stuff. So we're very cognitive of the need 
to move quickly. We are. But I can't say in November we're 
going to have recommendations because I just don't know where 
we're going to be with the science by then and especially with 
the model development.
    The Chairman. Those recommendations will be the result of 
collaboration between all of the different agencies and 
stakeholders. This is a broad-based study that everyone is 
doing. Obviously, in a lot of different areas and whatever 
recommendations come out of that will be a collaboration 
between everybody.
    Mr. Armor. Very much so.
    The Chairman. Mr. Baxter, just so I understand what you 
testified to, in terms of the correlation between food 
availability in fish and numbers, you talked about the growth 
rate of striped bass and smelt and how it had not changed since 
2001. Is that accurate? Did I understand that correctly?
    Mr. Baxter. It had not declined since prior to what we're 
calling our pelagic organisms decline. So the growth rates were 
as high or essentially a little bit higher in some cases.
    The Chairman. So should I take from that that food 
availability is not part of the issue in terms of what you were 
looking at?
    Mr. Baxter. The growth rates that we looked at were based 
on survivors. So those that survived in the system, did well. 
We haven't identified whether there are particular times or 
places, for instance, in 2005, during the spring, the copepod 
abundance was pretty low and that's important to striped bass 
and Delta smelt, but we haven't determined whether that was 
such a low level that it caused the mortality of those fish. 
The fish that survived grew well. So there's a little bit of a 
conundrum there.
    The Chairman. When you talk about declining numbers or all-
time low numbers, in terms of the smelt or the striped bass, 
what does that mean? Do we have 50 percent less than what we 
had in 2000 or 10 percent less? What actually do your numbers 
show?
    Mr. Baxter. I think all we can say for certain is that 
there's a decline from a relatively high level. We've done some 
investigations to see whether our abundance indices, whether 
we're able to discriminate among them, based on the variability 
that we see. And these extremely low abundance levels are quite 
a bit less than previous abundance levels, but we don't have 
like a one-to-one population relationship established for these 
indices. So all we know really is that the trend is down and we 
don't know where the bottom is and we don't know whether if we 
fail to collect any Delta smelt, whether that's a true zero. 
Most likely, it's not. It's just that we've missed them. We 
can't sample the whole estuary. The idea is not to catch and 
kill every fish out there in order to track a population. So we 
sample a fraction and make our estimates of trends from that.
    The Chairman. When you look for fish, do you go back to the 
same place every year and that's where you sample?
    Mr. Baxter. Correct. We have a broader array of sampling 
locations that are spread throughout the upper estuary and in 
some cases throughout the estuary and each time we go out, 
we're using the same gear at the same location, so our methods 
should not be affecting our capture or not capture of the 
fishes.
    The Chairman. Is it possible that your numbers are skewed 
based on climate or runoff? Some years we have greater runoff 
through the Sacramento River. Other years we have greater 
runoff through the San Joaquin River. Is it possible that that 
is influencing your numbers, based on where the fish are going, 
based on what temperature or water amount or water quality or 
food sources that change, based on where we have a greater 
water runoff?
    Mr. Baxter. Yes, the water runoff changes the distribution 
of the fish and that's going to change our ability to detect 
them, depending upon how many sampling locations we have in the 
vicinity of where they end up. So yes, it's all mixed in and 
that's part of all our years of sampling include essentially 
all the variety of water years that we've seen, certainly from 
the runoff standpoint. There are new factors. Any increases in 
pumping or increases to diversion will certainly change that, 
potentially change fish distribution.
    The Chairman. Finally, since my time is running out, I just 
want to go back to the question I asked you in terms of is it 
possible for you to say that the numbers are 50 percent less 
than what they were five years ago or do you just not, at this 
point you're not able to say that? And I just pulled 50 percent 
out. It could be 50 percent. It could be 80 percent. I don't 
know. I'm just trying to figure out.
    We hear about how the numbers are at an all-time low and 
I'm just trying to figure out what that is. Is it one percent 
less than what it was and that's an all-time low or is it 80 
percent less than what it was?
    Mr. Baxter. Yes, I think the only way that I can answer you 
is just to say we don't know what our index relationship is to 
the whole population and I think that's what your meaning is, 
is it 50 percent of the population? We don't know whether we 
suddenly start catching fish more poorly when the numbers are 
really low. It's possible that they're using other habitats 
that we don't sample well when the numbers are really low. So I 
can't answer the question.
    The Chairman. Thank you very much. I recognize Mr. Miller 
for his questions.
    Mr. Miller. Thank you, Mr. Chairman. Mr. Harlow, in your 
statement on page 4, you talk about water export pumping from 
the Delta and in the conclusion of your first paragraph you 
stated ``accordingly, it's unlikely that the reduction of 
export pumping is sufficient alone to bring about recovery.'' 
Certainly, I don't think any Members of this Panel suggested 
that we would do that alone.
    The question is and it's been amplified here this morning 
that this is a very complex problem. You go on to state that--
you put together in place an adaptive management program with 
the Bureau and with the Water Resources and Marine Fisheries 
Service to have the ability to address pumping effects within 
existing operational criteria and assets. And that the working 
group is specifically set up to review all available 
information to advise the Service on implementation actions. It 
can minimize the effects of export pumping on the species. And 
that is reviewed by what is called the Water Operations 
Management Team, is that correct?
    Mr. Harlow. Yes, that's correct.
    Mr. Miller. And you later on, on page 5, you go on to say 
``with a high level of concern for the Delta smelt populations, 
the working group has recommended to the Service and to the 
WOMT agencies, water management actions to protect pre-spawning 
adults and larvae from entrainment, be given the highest 
priority, export reductions taken'' and apparently you have 
recommended or the working group has recommended export 
reductions at various times. Is that correct?
    Mr. Harlow. That's correct.
    Mr. Miller. And that's the highest priority and to protect 
the larvae and intended to maximize recruitment of young fish 
and the opportunity to move out of the Delta where they are 
hatched into the marine areas of the Suisun Bay and Marsh, Mr. 
Nobriga's area.
    I guess my question is it appears that we have a very 
complex system here, but one of the constants that people are 
recommending not be changed and this is at a policy level, is 
exports. And in fact, we have a series of processes under way 
to increase the exports from the Delta.
    So one of my questions would be that you say that it's 
sufficient reduction export alone would not bring about 
recovery, what's the sense among the scientists about the 
increase in exports at a time when you don't know the 
ramifications of the clams, of pesticides, other factors?
    Mr. Harlow. I believe you're asking a question about the 
interrelationship between pumping and those other factors.
    Mr. Miller. I'm asking when you look at what is described 
as a very complex system, we have the impact of exotic species. 
You have the impact of some forms of various pesticides, 
herbicides, and we sort of have this three-legged stool here 
and experts. You wouldn't introduce more clams at this time, 
would you?
    Mr. Harlow. Correct.
    Mr. Miller. And you probably wouldn't introduce more 
herbicides at this time, would you?
    But apparently, there's an agreement somewhere between the 
agencies that we will continue to place in motion those things 
that would lead to additional exports of water from the Delta.
    Mr. Harlow. Congressman Miller----
    Mr. Miller. And whether it's a renewal of the contracts or 
whether it's trying to suck every additional acre foot you 
possibly can for the needs of California. And I recognize that.
    Mr. Harlow. Congressman Miller, I'd like to point out that 
we issued a preliminary biological opinion on increased pumping 
and that is not final biological opinion or final agency 
action. Beyond that, Congressman Miller, I've been advised by 
legal counsel, because this is in litigation, I should not 
speculate on the outcomes of the further analyses that will be 
conducted and considered before we issue a final biological 
opinion.
    Mr. Miller. Let's go to that issue there and you either can 
respond or you can't. You make that determination. I'm not here 
to force you to respond if you're not comfortably legally.
    But that biological opinion that you say you've come up 
with an adaptive management program that's agreed by the 
operating agencies that you can address the pumping effects 
within the existing operational criterion assets. Has anybody 
looked at whether or not the existing operational criterion 
assets makes sense in today's environment within the Delta or 
are we meeting operational criterion assets that may be 
inconsistent with the recovery of and the sustainable health of 
the Delta? Has that work been done in any of this?
    Mr. Harlow. That's part of the on-going investigation 
described by Dr. Sommer and others, yes.
    Mr. Miller. So Dr. Sommer, you're going directly to that 
operational criteria?
    Because in all your testimony, everything has to fit within 
that operation and I just want to know whether or not if we've 
looked at whether the foundation is solid here.
    Mr. Sommer. We're focusing on the current criteria, what 
we've seen over the past five plus years.
    Mr. Miller. And what do you--that's telling you what?
    Mr. Sommer. That there has been an increase, we think, in 
entrainment of several of these pelagic fishes during winter 
and again, the big question is does that have a population 
level effect.
    Mr. Miller. How many of these fish do we entrain over a 
year?
    Mr. Sommer. The problem with entrainment is----
    Mr. Miller. Is that the same as grinding up, lost in the 
pumps or sending them to L.A.?
    Mr. Sommer. No, we salvage fish at the fish screens, but 
the challenge is the fish we salvage represents an unknown 
portion of the total fish that are entrained. For example, 
state water project has a floor bay or a reservoir before the 
screens and so we think the actual losses are probably 
substantially higher.
    Mr. Miller. So again we go back to, we have a situation 
where it's suggested the complexity of the problem almost 
defies putting your thumb on any solution and I think that may 
very well be justified at this point. I'm just trying to 
determine what's the operating parameters here?
    So you have the listed species or several listed species 
here that are threatened, but we continue to send them through 
the pumps. Do you get a permit to do this? Do you get a take?
    Mr. Sommer. I'm the wrong person to ask about the----
    Mr. Miller. Who would be the right person?
    Mr. Sommer. We're here to present the science beside the 
fish decline.
    Mr. Miller. But I mean you've got a hole in the ship here 
and the question is do you fix it or not? I mean I don't 
understand. You have the threatened species. Does Fish and 
Game, do you have to get a take to entrain them? That's a 
delicate, wonderful word. There's two here from Fish and Game.
    Mr. Armor. The facilities operate with a biological opinion 
that sets their take points.
    Mr. Miller. That biological opinion is currently being 
challenged.
    Mr. Armor. Correct. And I think David Harlow can speak more 
to that because they issue one of the permits that they operate 
under down there.
    Mr. Harlow. That's correct. We do have a biological opinion 
that covers the current operations and that is in litigation 
currently.
    Mr. Miller. I'll finish here, Mr. Chairman. This system 
where we have this delicate complexity, we continue to allow 
the threatened species to be chewed or entrained somewhere. I 
guess they end up in Napolitano's District. It's not a great 
game fish, this smelt.
    Ms. Napolitano. They're salvage.
    Mr. Miller. They're salvage. And we also, our policymakers 
are deciding that they're going to export more water at a time 
when we're told that the dynamics here are so complex, we can 
get arrive at a conclusion. But some conclusions are already 
being pre-ordained here. But perhaps above your all grades here 
because these are policy considerations about renewal of 
contracts and how much water and all of those things that are 
very controversial at this dais here. But the fact of the 
matter some things continue to go on winter, spring, summer or 
fall, good year or bad year. And I'm just wondering at some 
point whether or not you can really talk about dealing with the 
complexities of the system, if you don't recognize that maybe 
you've got to put that on the table too, to deal with the 
complexities of this system.
    I don't know if that clam showed up and made it 
inhospitable or a failure of water to flush that area, made it 
more hospitable, I don't know that yet. All I know is we keep 
sending water out.
    I'll stop for the moment, I hope we'll have a second round 
of questions, Mr. Chairman.
    The Chairman. Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman. Now that I have 
Microphone 101 down I'd like to ask a couple of questions. For 
Mr. Chotkowski, a couple of questions. Some have called for 
significant reductions in the export pumps until a smoking gun 
can be found.
    Does the science currently indicate whether pump stoppage 
or reductions have any impact on fish populations?
    Mr. Chotkowski. Well, Congressman, I can only respond by 
describing the statistical research we did last year on this 
subject. What we did was look at the relationship between time 
averaged export volumes for several months of the year and the 
number of smelt that were taken to the fall mid-water trawl 
which is the index that's used for official purposes.
    And what we discovered preliminarily is that exports are a 
significant contributor or have a significant effect on the 
fall mid-water trawl index, they don't have a large effect. 
They have a small effect. So it looks like at this point if you 
believe that analysis that time averaged exports are not a very 
good predictor of fall mid-water trawl index, we don't consider 
this part of the research to be done yet, so we're not certain 
whether it's believable. We want to look and see whether it may 
be the case that experts are very important under some 
conditions that occur infrequently but not important under 
other conditions.
    Mr. Radanovich. They really don't have the science down yet 
on it.
    Mr. Chotkowski. Yes sir, that's right. We really don't know 
yet. We're working on it and what I've just described is 
there's sort of a middle step and an on-going analysis.
    Mr. Radanovich. OK, thank you. At other hearings, we've 
heard a lot about the Pacific cyclical oscillation, El Nino and 
La Nina, climate events and their effects on some ocean 
fisheries. How much of an effect has climate change had on 
Delta fishes. Do we know that? For you, Mr. Chotkowski or 
anybody else.
    Mr. Chotkowski. No sir, we don't know. I don't know.
    Mr. Radanovich. Wouldn't knowing that perhaps have a pretty 
good idea about why the decline of fish populations in the 
Delta? Do you have any idea whether you think that affects that 
or not?
    Mr. Sommer. We have been evaluating changes in salinity and 
temperature which are a direct effect of climate-related 
factors and how the habitat shifts with time.
    Mr. Radanovich. That would be as to the amount of water 
flowing into the Delta.
    Mr. Sommer. That's right, and also air temperatures as 
well.
    Mr. Radanovich. OK.
    Mr. Sommer. And there have been some long-term changes that 
we've detected based on that. And that's consistent with 
climate change, but also changes in flow patterns and exports.
    Mr. Radanovich. In anybody's view here, is the decline in 
the--could the decline in the fisheries in the Delta be 
attributed to what might be going on out in the ocean?
    Mr. Armor. We don't have a construct that would show us how 
that ocean would affect these species which are found up in the 
Delta. They don't connect to the ocean. They don't migrate 
there. Their food isn't fixed there. And so we can't say what's 
going on in the ocean that's affecting say Delta smelt, because 
they don't go there. They're disconnected.
    Now with a number of the species that we do monitor down in 
the Bay, yes, we do see an impact of these ocean conditions and 
ocean impacts, but that's separate from what we're talking 
about here today.
    Mr. Radanovich. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. I find this 
interesting, Mr. Armor, that you say that these long-term 
weather changes in the ocean may not affect. We were on a 
congressional delegation to the Amazon. Scientists there are 
finding changes in the Amazon River due to global warming or at 
least purportedly due to global warming that's affecting the 
fish. Fishing villages are being wiped out.
    So to me, there is some, something, some correlation to the 
warming of the oceans to the warming of the rivers, to the 
warming of the climate that may be affecting. Is anything being 
done to study that possibility? I'm not saying it happens, but 
the possibility. Because if it happened in another part of the 
world, please.
    Mr. Armor. One of the projects being funded by CALFED is a 
project that's looking at long-term scenarios in the estuary 
and the global warming is one of the scenarios that they're 
looking at. And they're using a series of models that have been 
developed and are being developed but they're bringing these 
together to look at these large, long-term, large-scale events 
like that.
    Ms. Napolitano. Is the academia being involved? Because I 
don't see anybody here representing that research portion.
    Mr. Armor. Oh, very much so. And in fact, a number of 
people in that proposal, actually not a proposal. They've got 
the grant now, are from academia. Stanford University, 
Louisiana State University. I'm trying to think where else. A 
number of research--Robert Turran Center. There's a number of 
folks involved there from academia.
    We've involved a number of folks from academia in our work. 
They're doing a lot of our toxicity testing, a lot of our more 
state-of-the-art science is being done by academia right now.
    Ms. Napolitano. Now the Delta smelt is now listed as a 
threatened species and the declines you see, the abundance in 
the Delta smelt, shouldn't it be reclassified as endangered, 
anybody?
    And we, of course--how do you make the determination and 
how bad does it get before that action can be taken? As we all 
know, we were advised and used to think that the pumping from 
the Delta in the winter was fine, it was OK. And now it's 
harmful to fish. Is there any time of year that has been 
determined that it might possibly be OK? Or is it for the whole 
year?
    Anybody, please.
    Mr. Harlow. Congresswoman Napolitano, I will respond to at 
least part of that question. Certainly the status of the smelt 
will be looked at when we update the recovery plan. And that 
will be a key thing we'll look at is its status.
    And then regarding your question about pumping, we, within 
the management agencies that are called the WOMT, the Water 
Operations Management Team agencies, clearly, we look at the 
hydrology that is present in the winter time and fish 
locations. And there are times when it is advantageous to pump 
south and fill San Luis when there are no fish present and the 
hydrology indicates there is no impact to those fish at the 
time.
    Ms. Napolitano. Well, in reading some of the testimony that 
has been some submitted, I find that much reference is done to 
small, immature fish. But the larger fish is getting fatter. 
What is the correlation and has there anything been done to 
further clarify why that is happening? Are they being--besides 
the pumping, entrainment, the clams and everything else, why is 
the issue of the nongrowth of the fingerlings of the small 
versus the mature getting fatter?
    Anybody? Hello.
    Mr. Baxter. We're currently investigating, some of the 
academic researchers are currently investigating growth of 
larval fish, Delta smelt, in particular, in a manner that's 
going to be a little more specific than the measures that I 
presented today. And we're hoping that over time that we'll be 
able to--in order to do that, you need to look at the ear bones 
and look at growth and survival that way. And it's a very time 
consuming process. And we're just not there with the answers 
yet.
    Ms. Napolitano. We've been funding studies now for a number 
of years. Nothing of this sort has ever been indicated there 
was a need for?
    Mr. Baxter. The striped bass data that I'm aware of, I 
don't know whether it identified a break point in growth or 
survival with any of the conditions that we're looking at right 
now.
    Ms. Napolitano. And just to add to that, you talk about 
pesticides, but you don't indicate anything that is connected 
to the use of fertilizers which also can be toxic.
    Anybody?
    Mr. Breuer. Where fertilizers play a role is they 
contribute nutrients that can add to the growth of algae and 
nutrients in an estuary aren't necessarily good or bad. It 
depends on what's benefiting from their application.
    But at this point, there's no toxicity directly from 
fertilizers that's a concern.
    Mr. Sommer. I might add, one of the issues though that 
we're looking at is what's going on at the base of the food 
graph and one of the disturbing patterns is the increase in 
toxic alga blooms that have occurred over the past seven or 
eight years.
    Ms. Napolitano. Explain, please.
    Mr. Sommer. There's a blue-green alga called microcystis 
that has started appearing with disturbing frequency in the 
central Delta. It's a known toxin to fish, to invertebrates and 
to humans. It's fairly prevalent during summer time in key 
parts of the Delta.
    Ms. Napolitano. Is that part of the study I hope, to be 
able to determine whether----
    Mr. Sommer. It's a key part of the study. And it may also 
be related to nutrient land-use pattern and flow patterns.
    Ms. Napolitano. Flow patterns from ag. use, possibly?
    Mr. Sommer. Perhaps.
    Ms. Napolitano. All of it. OK. Thank you, Mr. Chair. I'll 
wait for the next round.
    The Chairman. Mr. Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. I appreciate the 
panel being here and the interest in this topic. I lived on the 
Sacramento River for three years when I was on the legislature 
in Sacramento and I can tell you in that period of time I saw a 
wide variety of conditions affect the river temperature, high 
and low times, and I know how difficult it must be to try and 
judge all these different factors that go into play.
    I remember boats capsizing and God knows what were on 
those, the batteries and the acid and the lead could very well 
affect different conditions and different places. And so my 
question to you, Mr. Baxter, is how many years have you all 
been conducting these samples upon which we're trying to base 
the science?
    When did the testing start?
    Mr. Baxter. It started for different things at different 
times. The fishes are back to 1959.
    Mr. Cardoza. Just counting the fish?
    Mr. Baxter. Yes, looking at censussing the population.
    Mr. Cardoza. My question also deals with methodology. Have 
you changed methodology and could that affect the counts?
    Mr. Baxter. We haven't changed methodology in our long-term 
monitoring as far as capture goes. So no.
    Mr. Cardoza. So you feel pretty good about----
    Mr. Baxter. We feel confident with the fishes. We feel 
pretty confident with the zooplankton. We've lost some 
resolution with them, but we've got other surveys that are 
making up for that.
    Mr. Cardoza. Right, that makes me feel better. After the 
'97 floods and the huge flows that we had, I recall testimony 
when I was in the legislature that we had an over abundance of 
smelt that particular year, that they just--there were just 
huge numbers in the Delta. Does anyone else recall that? It was 
so.
    And then I was thinking that after this last year, we saw 
pretty large flows again and we saw just the opposite happen. 
We saw a rapid decline of the smelt.
    Can anyone say why one year, large flows result in large 
numbers of smelt; the next year when we have large flows, we 
don't? Has anyone been looking into that?
    Mr. Sommer. At specifically why the alarm bells went off 
for quite a few of us within the past couple of years, because 
the pelagic species don't seem to be following their historical 
relationships with flow. So for each of these species we've got 
much less fish for a given amount of flow than we had in the 
past.
    Mr. Cardoza. Thank you, Mr. Sommer. I have a question back 
to you. Are you familiar with Mr. Brian Manley's--was a world-
class statistician, with his work that was directed by the POD 
team to analyze the river flows and exports on Delta smelt? 
It's my understanding that his September report concluded 
export effects were not important to the changes in Delta smelt 
abundance.
    Is that your understanding as well?
    Mr. Sommer. I think Mr. Chotkowski would be a better person 
to answer that.
    Mr. Chotkowski. I'm sorry, that's the research I was 
referring to earlier in response to a previous question. I'm 
Dr. Manley's co-author on that study.
    Mr. Cardoza. I see.
    Mr. Chotkowski. And as I said what we found was that 
exports are--they are statistically significant as a predictor 
of fall mid-water trawl numbers, but they are a small 
contributor. They have a small effect. That's what we found so 
far. But we're not done with--I have to emphasize that this is 
work in progress, that we were using time averaged export 
volumes for that study and there are a lot of scenarios that 
we've considered where exports might be important under certain 
conditions, certain hydrologic conditions, but they may be 
unimportant under other circumstances and when you use time 
averages, the way we did, you tend to underestimate the 
importance during the important times and over-estimate the 
importance during the unimportant times. And so this work 
hasn't reached the level of sophistication where I can tell you 
really what the answer is.
    Mr. Cardoza. I thank you for that and we thank you for your 
work.
    I also want to submit into the record, if I may, Mr. 
Chairman, a document authored by William Miller who a 
consultant engineer from Berkeley's who responded to some 
questions that Mr. Radanovich and I have been working with. So 
without objection, I'd like to submit this for the record and 
thank the Panel for their information.
    The Chairman. Without objection, it will be included.
    Do you have additional questions, Mr. Cardoza.
    Mr. Cardoza. I will have, Mr. Chairman, but I thought I'd 
let the rest of the Panel----
    The Chairman. I'm going to recognize Mr. Miller for a 
second round of questions at this point.
    Mr. Miller. Thank you. Mr. Harlow, I don't want you to 
think I'm picking on you here, but you have the most extensive 
statement here which kind of I think leads us through the 
process here and the components of it. I'm just trying to 
figure out the interaction of this.
    As I said in my opening statement, I think all of your 
contributions are incredibly important to unlocking this 
problem. I'm also concerned how policy lays over the top of 
that when we get--Congress doesn't always accept the best 
evidence. That may be news to some people, but probably not the 
scientists. And so I'm concerned about those overlays.
    And you say that in March 2004, you concluded that 
delisting was not warranted and that the species continued to 
be threatened with extinction and that you're revising your 
1996 recovery plan. Is that still work in progress?
    Mr. Harlow. Yes.
    Mr. Miller. I assume that's being influenced by what's 
going on here at the table and out there in the Delta?
    Mr. Harlow. Absolutely.
    Mr. Miller. OK. The other one, you make a decision, you 
make a comment, I don't like to paraphrase, but on page 5 you 
say that your team has several adaptive water management tools 
that can be used to help protect the smelt, including, but not 
limited to the environmental water count, water available from 
the Central Valley Project Improvement Act, commonly known as 
B2Water.
    What else is in that tool kit that you would summon up to 
use?
    Mr. Harlow. Yes, Congressman Miller, I'll try to remember 
all the environmental water tools that are available, but we 
have the ability to carry depth in San Luis Reservoir, the 
State Water Project will carry depth.
    We have the ability to change some of the hydrology by 
opening or closing the cross channel gates. And we have----
    Mr. Miller. So those are operational calls that you make?
    Mr. Harlow. Operational and we can--timing shifts.
    Mr. Miller. Let me ask you, one of those obviously, I guess 
is you can recommend a slowing down or a timing of exports in 
the fall or the winter, different times, right? Is that 
correct?
    Mr. Harlow. Correct.
    Mr. Miller. And Mr. Chotkowski, I'll go to your paper, you 
made a decision I think in January '05 that there should be a 
slow down of the pumping at that time that the Service or the 
Committee made. That was not adhered to, is that correct?
    It was modified from the original recommendation?
    Mr. Harlow. Probably better if I respond to that one as 
well. The action I think principally there was just a delay in 
its implementation and then by the time it was implemented----
    Mr. Miller. When the water is flowing through the pumps, 
delays are a big deal.
    Mr. Harlow. There are difficulties that the project 
agencies have to deal with in terms of setting up timing of 
changes in pumping and addressing power changes and the like.
    Mr. Miller. And the same true in April '05, right? Made a 
recommendation and that, too, was changed, correct?
    Mr. Harlow. That was May.
    Mr. Miller. Was that May? OK. I just want to go to your 
response to Mr. Cardoza and Mr. Radanovich that you did this 
time average study apparently based upon your understanding of 
the science at that time, you thought that that would make 
sense to slow down or to change the pumping regime that was 
called for at that period of time.
    I don't quite get how we're going to determine whether or 
not the pumping is a problem that can contribute to the 
solution if we're not following the science and the current 
operation.
    I don't know what impact that has on your study because you 
say you don't know the downsides of the most important periods, 
and you magnified the impacts of the least important areas when 
you do your time averaging. So we have recommendations for 
scientists throughout the year that maybe the pumps ought to be 
modified because of conditions in the Delta. Those aren't 
followed. How do we know then what the study tells us?
    Mr. Harlow. Actually, the first thing I'd have to say is 
that the recommendation you're referring to, January of '05, 
predates the study that I was describing, so that information 
was available then.
    Mr. Miller. OK.
    Mr. Chotkowski. All I can say about the effects of pumping 
is that it's pretty clear that it's complicated and it depends 
a lot on a lot of small hydrological details and so I think as 
far as the smelt working group is concerned, any 
recommendations that we might make as scientists are based more 
in a sense of precaution about doing things that we think might 
be important, but which we don't really----
    Mr. Miller. I think that's the way you should operate. I 
mean you're here with the fish that had an indices of a 
thousand and it's now at 26 and you have apparently some 
determination within this working group that we ought to slow 
down the pumps for five days or we ought to delay the pumping, 
the increase in volumes for some period of time, some 
modification of that and yet policymakers, apparently override 
that. And yet, we're told that this is a very delicate thing 
and it contributes to it. We don't know how much and yet we're 
not following the science.
    I'm just trying to determine here--we can keep talking for 
sound science, but then when we don't follow what may be the 
best available science at the time or the best hunch, if you 
will, based upon that science, it's not followed.
    Mr. Chotkowski. All I can say is that the issues that arose 
in '05 predated the studies, so there isn't a question of 
whether this science was being followed. Other than that, I 
really can't comment on it.
    Mr. Miller. Well, should these recommendations be 
overridden, when we're in this time, when we're trying to hold 
on to what may now be an endangered species?
    Mr. Chotkowski. I'm a scientist and I can't answer that. 
That's a question that should be addressed to the policymakers.
    Mr. Miller. Well, the problem is that if you continue on 
through your statement, Mr. Harlow, you talk about making real 
time decisions, that you're trying to get the science in shape 
so you can make some real time decisions because we know 
conditions change for a whole lot of external reasons within 
the Delta, but if you can't--if those real time decisions 
aren't followed, that's not going to work out very well.
    Mr. Harlow. Yes, and working with the California Department 
of Water Resources and the California Department of Fish and 
Game and the development of the Delta smelt action plan which 
came out, I believe, this last spring, not quite a year ago, 
one of the things the Department of Water Resources looked into 
was their ability to implement actions more quickly. And 
basically, they've changed the rules and they, in an emergency 
situation, they have committed to being able to change pumping 
rates at the state facility within three hours.
    Mr. Miller. If they decide to do so. I mean that's the 
problem. Again, you make the recommendation, they can decide to 
do so or not do so. It's not a binding recommendation.
    Mr. Harlow. Well, they control the pumps ultimately----
    Mr. Miller. There's big systems where there's an overriding 
concern. In the airline industry, it's getting the planes out 
on time, so you start to override. You have to have ways people 
can say wait a minute, we think you ought to check the engine.
    In the oil business, ships leave on time, you know. In this 
case, obviously, the export of water that is vital to the 
entire State of California is a driving force. And the question 
here is whether or not the best science that we're developing 
as is determined under an adaptive management program can 
provide a circuit breaker at various times because the 
scientists determine it's critical to do that, maybe if only to 
learn something. But it doesn't appear that that's how this 
system is, in fact, really set up. It's going through 
modifications and I appreciate that. I think it's important and 
it's going through modifications because of the lawsuits or at 
least there's some question of whether or not that criteria was 
correct or not.
    But if it's just going to be overwhelmed by the adherence 
to the export of that water without determine whether it can be 
modified in time and place or total amount or with the rest of 
it, I'm not sure you can cure these problems, whatever you find 
out about the clam, the herbicides and the rest of these things 
that are taking place.
    Thank you.
    The Chairman. Ms. Napolitano?
    Ms. Napolitano. Thank you, Mr. Chair. Mr. Harlow, your 
statement states that the agencies can address pumping effects 
within the existing operational criteria and assets.
    Would you explain that, please?
    Mr. Harlow. Yes. What that means is if we have the tools 
that I mentioned in response to Congressman Miller, plus we 
have what's called the Environmental Water Account which is 
basically a checkbook that the fishery agencies have available 
to reduce pumping rates for protection of fish and then 
reimburse whoever has essentially lost that water supply at a 
later time. And that actually is part of the reason that the 
timing of pumping of water that Dr. Sommer referred to has 
shifted is because we'll typically reduce during the springtime 
when there's considerable fish movement in the Delta and then 
reimburse that at a later time in the fall. And then there's, 
of course, the water available under the Central Valley Project 
Improvement Act, referred to as B(2), although it's a secondary 
purpose, we can apply B(2) at pumping reductions at the Central 
Valley Project facility.
    Ms. Napolitano. Thank you. Mr. Chotkowski, how much funding 
money has the Bureau asked for in the Fiscal Year 2007 budget 
for the work of the inter-agency ecological program and the 
pelagic organism decline study and who is responsible for 
paying for them and where does the money come from? Does it 
come from the taxpayer, water users, CVP restoration and does 
CALFED pay for any of these studies?
    Mr. Chotkowski. Yes, ma'am. I don't want to be 
disappointing, but I don't know the answers to some of your 
questions. I only know how much we, as scientists, have asked 
for from the program.
    Ms. Napolitano. Which is how much?
    Mr. Chotkowski. Actually, Chuck Armor can probably answer 
that down to the dollar.
    Do you mind if I pass it off to him?
    Ms. Napolitano. No. Please, whoever can answer it.
    Mr. Armor. In terms of funding coming into the program for 
2006, the Bureau of Reclamation is putting in about $4,230,000 
into the IEP part. They are also putting in--I'm sorry, 
$4,062,000 into the IEP part and $1,847,000 into the POD part.
    Ms. Napolitano. That's '06. What about the request for the 
'07 budget?
    Mr. Armor. The '07 budget, I don't know. I am dealing, the 
only budgets I'm dealing with is getting the current year in 
and running. I think it's safe to assume they're asking for an 
equivalent amount and with possibly some additional on top to 
account for cost of living increases, but I don't know what 
they've asked for.
    Ms. Napolitano. Well, knowing full well or at least you 
have already signs that you're having a problem, you're not 
asking for an increase to be able to cover any of those cost 
studies for the expansion of the research?
    Mr. Armor. The directors, when we've gone in and asked for 
additional funding, they have made it available and they've 
told us--I'm not going to say in three years I need another $10 
million because I don't know if that's going to be the case. 
What I do have from the directors when I walked in last year 
and said I needed $1.7 million, it was on the table right 
there. When I walked in this year and said I need $3.7, it was 
there and they've made the commitment to us, tell us what 
resources you need and they will get it for us. So that's a 
construct under which I'm working and so far that's--now what 
their budget, I know on the Federal side they have to budget a 
number of years out. I don't know what numbers they're using 
there.
    Ms. Napolitano. Is anybody looking at the ways we can cut 
back on the use of the pesticides, is that a part of your 
study, since we know that it is toxic?
    Mr. Breuer. Part of the problem is that you can determine a 
contaminant is toxic and its location it's being used, but our 
issue is how to make that connection with the pelagic fish 
decline. So that's why we have what we call that fish-up 
approach, where we're really looking to see if we see any 
toxicity in the Delta to not only the fish, but the smaller 
organisms which might give us an indication that the food chain 
has been impacted.
    If we don't see that toxicity, there's no reason to chase 
after a contaminant, if we don't see the effect.
    Ms. Napolitano. That's interesting, because this morning 
there was a program in regard to water funded by many of the 
water agencies which was talking about the--kind of the domino 
effect, if you will, of the contamination being whether it's at 
lower level, be eaten by a larger fish who gets eaten by a 
larger fish and it increases the toxicity. That's an issue, is 
it not?
    Mr. Breuer. Certain contaminants can be moved up the food 
chain. They accumulate within the food chain. Other 
contaminants have an acute effect, in other words, they 
basically create their effect, but are not absorbed by that 
lower food chain and passed up. It's very, very particular to 
specific types of contaminants.
    Ms. Napolitano. And those are?
    Mr. Breuer. They can be passed up the food chain, I'm 
sorry? As far as our investigations, we're looking to see 
whether or not we're seeing toxicity to the pelagic organisms 
or components of the food chain in the Delta itself.
    Ms. Napolitano. That should be part of the study or is it?
    Mr. Breuer. It is part of the study, yes.
    Ms. Napolitano. Will the fish be harmed even more if the 
pumping is increased as called for in the CALFED ROD record 
decision in the OECP?
    Yes, no, maybe?
    Mr. Harlow. Congresswoman Napolitano, I think that's one of 
the three key areas that is being looked at by the group that's 
assembled here. We won't know the answer to that until the 
studies are completed.
    Ms. Napolitano. And the studies should be completed when?
    Mr. Harlow. Do you have a date for your analysis?
    Mr. Chotkowski. There is no end date at which we can 
confidently predict that we're going to have the answer. We're 
making progress, but the nature of science is that it's got all 
sorts of unexpected twists and turns and there's a lot of work 
to do.
    Ms. Napolitano. Understood, but there is a crisis that this 
area is facing and unless we start working, seeing what the 
results are and taking action, as you well know, the government 
works very slowly in responding.
    Mr. Chotkowski. We agree there's a crisis and that's we're 
taking a full court approach to addressing this and so far 
we've gotten complete support from our agencies to do as much 
as we think we need to do. Resources haven't been an issue up 
to this point.
    Ms. Napolitano. Again, I go back to knowing how government 
works and how the agencies sometimes banter back and forth to 
be able to come down to the actual results and the solution. So 
are you working so that that can come up to the forefront as 
immediately as possible so that this issue can be looked at and 
worked on not two years from now, but rather hopefully sometime 
this year?
    Mr. Armor. One thing that we've made a commitment to and I 
alluded to this in my testimony, is that as we learn 
information we're not waiting until the end of the year to put 
it into a report and submit it. What we're doing is as we learn 
things that we see will have an--that can have an impact on 
policy and management decisions, that will be elevated 
immediately. It will go through our internal review process. It 
may go through some peer review, but it will be made available 
as soon as we can get it up to our directors and out.
    We're not waiting to put stuff into a big report that tells 
us. As we find pieces along the way that will be useful in 
management decisions, they will be made available.
    Ms. Napolitano. But who will be responsible for ensuring 
that action is taken, positively to change the effect of what's 
happening now? Because if you a higher echelon that says OK, 
here's the report. It got buried.
    Mr. Armor. That's the policy and management people that are 
doing that. We'll provide them the science and our 
recommendations and they make the call on what they do with it.
    Ms. Napolitano. Thank you, Mr. Chair.
    The Chairman. Mr. Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. As I sit here, I have 
an observation that we have some of the world's experts in 
biology of the Delta sitting in front of us and what I take is 
that we know a lot more about what we don't know than what we 
do know exactly. And that is a very difficult position for 
someone like myself. It makes it easy for those on both sides 
of the issue, those who have had a historical perspective that 
additional pumping should take place, can use the lack of 
information to their advantage; and those folks who have 
historical anger about the fact that there's any pumping going 
on at all can make their own case that we should stop 
everything today until we find out exactly what's going on.
    Myself, as a moderate Member, some say I'm a raging 
moderate, that tries to find the truth and I really appreciate 
the perspective and the hearing that Mr. Pombo and Mr. Miller 
have put together here. It's important for us to convene these 
and do examinations and frankly, we have to take into serious 
consideration both sides.
    And I guess what I'm looking at now is how do we as 
policymakers try and figure out the correct course based on the 
amount of knowledge that we have in front of us today? And I'm 
looking back at some of your testimony, Mr. Harlow, and on 
December 9, 1993, you testified that Endangered Species Act was 
enacted and Delta smelt was listed as threatened during that 
period of time, around fall of 1993. And then I recalled in my 
previous question that in 1997 or '98, that period of time, we 
saw a tremendous increase of Delta smelt and to the point we 
were thinking hallelujah, this may not be a problem after all. 
We thought that for a period of time.
    And then now we've seen the numbers crash back down, 
according to Mr. Miller's quote and some of the other 
testimony. I guess my question--and based on some lawsuits that 
took place by the Farm Bureau and San Luis Delta Mendota Water 
Agency, your organization is going through a five-year review 
of some of the listing questions and some of the processes.
    Mr. Harlow, could you please inform us the process and time 
line of the Service's review of the recovery plan and what you 
see might come out of that review?
    Mr. Harlow. OK, Congressman Cardoza, our status review 
actually was completed.
    Mr. Cardoza. It is.
    Mr. Harlow. Yes, that was completed and my apologies, I 
can't remember the Court date, but it had to be submitted to 
the Court. That was done and we were just commencing 
preparation of a revision of the recovery plan.
    Mr. Cardoza. That's what my question was.
    Mr. Harlow. Right, and we don't have a specific deadline. 
Typically, and particularly with one this complex, we will have 
a number of academic members and stakeholder representatives, 
they take typically a couple of years.
    Mr. Cardoza. And I open this up to the Panel, do you see 
tremendous benefits in shutting everything down so you can 
study, knowing the economic costs that the community could 
possibly have to export Southern California to the power plant 
losses, and if you all could give your best guess, what's the 
cost?
    Is anybody willing to take that?
    I think by the silence, we know a lot. Thank you very much, 
Mr. Chairman.
    The Chairman. I appreciate the testimony of the Panel in 
your effort to try to answer the questions that Members of the 
Committee have. I think Mr. Cardoza is accurate in saying that 
we know a lot about what we don't know, but none of you are in 
a position right now to make policy recommendations that would 
carry us from what current policy is to what a new policy would 
be in terms of changing the laws. I mean I look at this and I'm 
somewhat concerned. Over the last 15 years, we've gone through 
a process of changing the timing of when we pump and how the 
pumps work and putting in fish screens and spending literally 
hundreds of millions of dollars and billions of dollars in lost 
economic activity. And it doesn't seem that any of that has 
worked and I think what we need to figure out is why.
    Mr. Cardoza asked kind of rhetorically about shutting down 
the pumps and I don't think anybody would realistically say 
we're going to turn off the pumps completely, but the timing of 
when they pump and all of that was based on what we felt was 
the best science then and obviously there are policy decisions 
that are made. There are political decisions that are made that 
influence the final outcome of that, but it's based on what you 
or your colleagues have recommended in the past and that has a 
big impact on the health of the Delta, but it also has a big 
impact on the health of the economy of the State of California 
what we decide to do and what we don't do.
    I am enlightened somewhat and hopeful that the tenor of 
most of this hearing dealt with the science and our effort to 
move forward has to be based on the best science we have. I 
know that it changes every day and that you find out new things 
every day and that has an impact on what the final report will 
look like, but we do need to at least allow you the ability to 
give us your best recommendation based on what you know.
    We are the ones that have to make a political decision 
based on that science, but if the science is the best that you 
can give us and the best information that you can provide and 
recommendations you can provide, we at least have a solid basis 
to start.
    I did not want this hearing to become another round of 
finger pointing and have the ability of people to come up and 
try and push their particular point of view which is why we 
tried to focus on you here today and I do appreciate all that 
you did. As we work forward on the policy side of this, 
obviously you and the rest of the members of your team will 
influence greatly what ultimately comes out of this, but I 
think we all can agree that we want a healthy Delta ecosystem.
    We want the Delta to be environmentally sensitive and 
environmentally healthy. At the same time, I think most of us 
agree that it is an important part of our economy of the state 
for a number of reasons. And we can have a healthy Delta and a 
growing economy at the same time. I think that's the balance 
that I'm trying to find and I think most of the members of the 
Committee are trying to find. So I appreciate your testimony. I 
appreciate my colleagues being here today to--did you want 
another round?
    Mr. Miller. Yes.
    The Chairman. I thought you were finished. I'll recognize 
Mr. Miller for another round of questions.
    Mr. Miller. Let me just say with all due respect to my 
colleagues, somehow this is a contest between those who would 
run the pumps full open and those who would shut them down. I 
hope you didn't spend any time modeling those two alternatives, 
since they're obviously unacceptable across the state. But the 
question really is, how do we operate this system in a manner 
that will meet the requirements of numerous laws about the 
health of the Delta and its species? And that's the challenge 
and I want to join in thanking you for that--for your 
participation in that effort.
    And for us in Congress to think that well one year we got 
something good and the next year we got something bad, what 
does that tell us? I assume what we're concerned about here is 
certainly the last 20 years the trend lines are not great in 
these species. We have ups and downs, but the trend lines 
worries you here.
    If I might, Mr. Nobriga, if I might ask you a couple of 
questions for purposes of edification, you say that the Suisun 
area is not the nursery that it used to be and you talked about 
the clams and that.
    Could you just, in layman's terms, tell us where you are 
today in terms of do we get any relief when we have these high 
outflows from rain? Does the water flow shrink or expand 
nurseries or is it salinity which moves across that sort of 
mixing area in the western Delta, I'd guess you'd call it or 
the eastern bay. What do we think we know about this, this 
species and its impacts?
    Mr. Nobriga. Are you talking specifically for Delta smelts 
or just the ecosystem?
    Mr. Miller. I guess I would start with smelt, but obviously 
the impacts on other species of interest to us, too. Just in 
layman's terms.
    Mr. Nobriga. To a point, speaking for Delta smelt, more 
flow will generate more fresh water habitat for them to be in. 
Too much flow can actually be a bad thing.
    Mr. Miller. Is the fresh water then impacting the clam and 
is the clam moving with that barrier, that interface?
    Mr. Nobriga. Oh, you know, unfortunately from what I think 
we've seen in our water quality monitoring, the clam is just 
kind of perfectly adapted to the brackish water.
    Mr. Miller. OK, so it's----
    Mr. Nobriga. Really, really fresh water could displace it, 
if it was prolonged and really, really salty water could.
    Mr. Miller. But those are subject to pulses?
    Mr. Nobriga. Right.
    Mr. Miller. Next year's rainfall is not going to determine 
that?
    Mr. Nobriga. Yes, the clam seems to just be there, whether 
it's a high flow year or not so much of a high flow year. Its 
effect might be mitigated a little bit by high flows, but it 
doesn't seem to come back to what it once did, even then.
    Mr. Miller. So the interface of the clam and the smelt is 
what?
    Mr. Nobriga. The direct connection of the clam to the smelt 
hasn't been made. Smelt sizes in the fall are smaller, since 
the clam has been here, than they used to be, but--excuse me, 
than they were prior to that. But the abundance numbers haven't 
tracked the clam. Delta smelt seems to have declined or started 
declining before the clam got here. So that doesn't mean the 
clam didn't put a cap on it. It just means something else 
caused it to go down first and now you may or may not see a 
clam effect.
    The clam effect is more obvious on long-finned smelt and 
striped bass which are two of the other.
    Mr. Miller. And that's caused by?
    Mr. Nobriga. Presumably it's caused----
    Mr. Miller. Competition for food?
    Mr. Nobriga. Yes, food. But that's an assumption.
    Mr. Miller. And that's----
    Mr. Nobriga. Probably a decent assumption based on the data 
we have.
    Mr. Miller. That's why I'm asking, from what you know 
today, you think that's what the clam is doing is it's 
competing for----
    Mr. Nobriga. Yes, stealing the productivity. Putting it 
into clams instead of allowing it to become fish.
    Mr. Miller. Thank you, that's helpful. On the question of 
exports, we used to have sort of a raging controversy over in 
Glen Canyon and the question is what's happening to the 
Colorado River and decisions were made to try some different 
regimes to see what the impacts would be downstream. Some of it 
was about sedimentation and some of it was about fish and some 
of those concerns that were there when we put the dam in. And 
we ran a number of models. They're not models. We ran big 
flows, small flows back and forth and tried to see what was 
happening down there. It was fairly controversial, if I 
remember at the time with the power companies and the loss of 
generating capacity at that time.
    Are we doing any of that kind of effort with the pumps 
here? When Fish and Wildlife makes the decision that it might 
not make sense to pump at this particular time, this number of 
days or this season, what have you, when that--is that studied 
at that time to see what's taking place as a result of that 
recommendation, if it's followed?
    Mr. Harlow. The recommendations are based on what we know 
about the fish and the hydrology at the time and we monitor 
that----
    Mr. Miller. It comes with the monitoring component?
    Mr. Harlow. Yes, I mean the whole program here is an on-
going monitoring program and so in terms of kind of a research 
model like you're speaking of, I do know a little bit about 
that because I worked in Arizona for a number of years and I 
would say it's not comparable to that type, where you have 
extreme events that, of course, Glen Canyon, you have an 
advantage because you can still capture the water. So you could 
have extreme events and then catch it at the lower end.
    Mr. Miller. When you're monitoring this, are you building a 
model as you have these, make these--it's tough. I'm into deep 
water here. In the sense that the years are all different in 
what's going on in the Delta. We keep talking about this as one 
of the most complex hydrological systems that we're trying to 
deal with. Is there an ability to start to build on this 
knowledge, to build on these recommendations? Was that right? 
Was it wrong? Should it have been longer, shorter, different? 
Is that effort being made so we can sort of look back and see 
what decisions made sense or didn't make sense or is it just 
the water years are too different to put much stock in it?
    Mr. Miller. I think the analyses that Dr. Chotkowski and 
Dr. Manley are working on help with that. And all these 
gentlemen probably know more how to respond to you than I do 
from the scientific methodology, but we do have a grant that's 
been awarded by the CALFED Science Program to develop a Delta 
smelt model and I believe the data, coming from these studies 
can complement the model so that we can better assess what 
actions are most beneficial at the population level, once that 
model is developed and tested.
    Does anyone else wish to respond to that?
    Mr. Sommer. There's a couple of things we can do. We take 
the data that we're observing in the field and try and make a 
model out of that and there are also examples of adaptive 
management where you do experiments with the entire Delta. 
That's being done right now every year for salmon with the 
Vernalis Adaptive Management Plan.
    I think our managers would have a concern with too many 
experiments going on at one point. That's already a big one and 
we need to run that one long enough to be able to learn from 
that. That may be useful though for learning about Delta smelt 
and striped bass responses as well.
    Mr. Miller. My concern is, I obviously hope, no way believe 
I'm cavalier in raising the issues about exports that are 
alluded to in some scientific work and my concern is that, as I 
said, you wouldn't add more clams. Well, we have a policy 
decision that has the expectation of increased exports through 
the pumps in one form or another and so it would seem tome just 
as you would want to figure out what's going on down there and 
the complexities with the clams or what's going on with the 
herbicides, you've got to figure out what's going on here 
today, so you can make a rationale, scientifically based 
decision about future protocols in terms, in the terms of the 
exports from the Delta. And there may be a lot of other 
alternatives than those pumps, that configuration, whatever it 
is.
    And I'm just trying to determine that this isn't and I 
recognize and I'm pretty well steeped in the politics of this, 
I'm just trying to make sure that this hasn't been taken out of 
the equation or that we raised all of the complexities and 
therefore it really doesn't make sense to look at this because 
there's all this other stuff going on out there in that system 
and this is just one part of it.
    I'm just trying to make sure that when we're doing this 
investigation that one is comprehensive and that all of the 
questions that are being raised by you and others are subject 
to that full investigation. That's my concern here. And again, 
I appreciate that some of the policy and political concerns are 
made outside the realm of scientific inquiry, but it's 
important that these recommendations be given a chance to see 
whether or not they make an operational difference, they make 
an improvement or they diminish the health of the Delta. 
Otherwise, I don't know how the scientists can't do this. You 
can't say based on our recommendation we should go forward and 
look at this, how you ever get to the end of the story here 
with any credibility.
    Mr. Chotkowski. Congressman, I just want to point something 
out that no one has brought up that actually is something 
that's going to be very helpful to all of us and that is 
particle tracking and other hydro-dynamic computer models of 
Delta operations are getting much more sophisticated and we're 
able to model things now that are getting progressively more 
able to model things in ways that we never could before.
    And so it's entirely possible that some of the experiments 
that some of us scientists would have loved to do, greatly 
modifying operations in the Delta are actually going to be 
possible to be done in a virtual way by computer fairly soon 
and that should be a big help.
    Mr. Miller. Modeling is controversial in this Committee, 
but we'll set that aside for a moment.
    [Laughter.]
    Thank you and thank you for the additional time, Mr. 
Chairman.
    I would like to reserve the right of Members of the 
Committee to submit some additional written questions as we 
look at this transcript. And I would hope that this is the 
first in a series of hearings about the on-going operation of 
this. I think everybody in this room understands how central 
this is. I do not believe that the people of this state, 
whether they're from the north or the south, we've been through 
some of those skirmishes, are going to make this a national 
sacrifice area in its operation. I think the struggle that 
you're involved in is strongly supported by people who 
understand the ramifications of the failure, of the collapse of 
this system.
    A couple of you have said this just isn't about this 
species. This is about this environment. And that environment 
holds a huge amount of value to this entire state and it's--
that's the basis on which the laws were changed, was to make 
sure that we went back from a very narrow tunnel vision of 
responsibility of the north just to keep sending water south 
without looking at the ramifications.
    And it was clearly a lot of agreement and that's why you 
have CALFED--that we had to go back and make this effort at 
restoration. It hasn't been perfect. It hasn't been cheap, but 
I'd like to--someone can look at these graphs you've brought us 
and look at what that trendline would be if some of these 
efforts weren't made on behalf of the fisheries that go through 
the Delta.
    That's really what it's--there is a charge to put this 
system right side up on a sustainable basis for the 
environmental quality and for the species that move across it 
or reside in it. That's pretty clear. That's the current law. 
And some people want to change that and we can debate that at 
policy, but right now that's kind of the operational construct 
here that we get on an even footing here for these other 
values, other than just exports.
    Mr. Chairman, I think this has been a good beginning, but 
we certainly have a ways to go and I would hope that we could 
work with you to try to develop other hearings that would lend 
to our understanding and consideration of what some of the 
solutions might be when they're presented to us by the 
scientists and others.
    Thank you.
    The Chairman. Ms. Napolitano, do you have any questions?
    Ms. Napolitano. Just to add on to what my colleague is 
talking about. Part of what--I've been involved with the 
Colorado River, the Moab issue, the salinity issue on the 
Colorado River. Is that--and of course, the other issue is the 
effluent pumped by the cities into the rivers and into the 
aquifers--not the aquifers, but the waterways, that does have 
an impact on the life and the evolvement of your fish, of the 
health of the fish.
    Are all releases back into the river being treated before 
they're released? Any way to be able to gauge whether or not 
any of that is affecting the health of the fish?
    Mr. Breuer. As we shift from agriculture to urban and our 
watershed, this is becoming a bigger and bigger concern for us, 
the expansion of waste water treatment and urban runoff is a 
growing concern that needs to be studied more. And that falls 
under the Clean Water Act and so those arms of agencies such as 
the State Water Resources Control Board or U.S. EPA need to 
address those issues so that----
    Ms. Napolitano. Are you working with those agencies? 
Because I don't see CAL EPA or the Federal EPA here.
    Mr. Breuer. Yes, both the 2005 work involved both those 
agencies.
    Ms. Napolitano. What about current work?
    Mr. Breuer. Yes. Both U.S. EPA and the Regional Board are 
represented on our project work team as well as academia.
    Ms. Napolitano. Is there--there's a mention in one of the 
reports that there may be some leakage of saltwater that may be 
causing some of the problem. Is that anything else going into 
that? I read it in one of the reports. Don't ask me where 
because I started last night.
    Mr. Breuer. Can you give us a little more? I'm not too sure 
what you're referring to.
    Ms. Napolitano. It indicated there might be some leakage of 
salt intrusion into the Suisun area at least, if I remember 
correctly, that was in one of the reports.
    No? I'll submit it to the record to you and that way you 
can take a look at it and work it out.
    Are EPA and the agencies working together to identify any 
major dumping that may be causing part of the contaminants 
anywhere?
    Mr. Breuer. Once again, under the Clean Water Act, the 
permitting and discharge of contaminants falls underneath, in 
this case, the State Water Resources Control Board and the 
regional boards. So to that degree, to the degree they're able 
to have the resources to carry that out, yes.
    Ms. Napolitano. Well, is this another case of agencies not 
talking to each to compare notes?
    Mr. Breuer. Absolutely not. We coordinate with them closely 
and this has been a huge concern and like I said actually on 
the synthesis report, scientists from U.S. EPA and scientists 
from the regional board actually helped write the report and 
the work plan for next year.
    Ms. Napolitano. Because I'm with my colleague, Congressman 
Cardoza, because we both served at the state level at the same 
time and I can remember the Sacramento River being polluted by 
the discharge of the motor boats and the boats--remember that? 
That was an issue that was causing some of the damage.
    Has part of that study been taken into consideration or is 
there something else that can be done to prohibit the continued 
use and contamination by the gasoline, the different oils that 
are spewed into the river?
    Mr. Breuer. We've looked at hydrocarbons as an issue and 
after the MTBE--MTBE was a big issue with groundwater and 
during that same time we did a very intense study of MTBE in 
the surface waters and it's not a problem.
    Ms. Napolitano. Surface waters. What about rivers?
    Mr. Breuer. That's what I mean. Within the watershed of the 
Delta, the surface waters including the tributaries. MTBE is 
not a concern.
    Ms. Napolitano. Thank you. Like my colleague, I would 
certainly like to have some questions submitted for the record.
    Thank you.
    The Chairman. Mr. Cardoza?
    Mr. Cardoza. Thank you, Mr. Chairman. I want to follow up 
just a little bit on Ms. Napolitano's comments because I 
remember when we were serving on the same Committee together, 
and the testimony at that time was that there were budget cuts 
at the state level that were precluding the ability to take off 
wrecks or different things that were getting into the river. In 
fact, anglers were complaining to the Committee that there 
would be a wreck or someone would throw a vehicle over the 
levee and into the river and it would sit there for 10 years 
and leach heavy metals out of the batteries and all the rest.
    Your information is not showing that that has any effect?
    Mr. Breuer. Well, I'm trying to contain my comments 
regarding right now to the pelagic organisms and for example, 
Delta smelt has a very short life cycle. There are things that 
might, like a long-term contaminant concern like the old 
organic chlorines like the DDTs that accumulate and hang around 
for a long time may not necessarily accumulate an organism that 
has a very short life.
    As you know, we've tried to, through the history of 
contaminants such as agricultural and chemicals, we've tried to 
move away from these chemicals as we've learned that they 
create an environmental problem. The use of pyrethroids is an 
example of that. We've moved away from the organophosphates 
such as Diazinon and chlorvirophos because of our concern over 
mammalian toxicity. We've gone to something--pyrethroids has a 
very short half life, relative life and has a very low 
mammalian toxicity. The problem is it can be very toxic to 
aquatic organisms.
    The question is does that find its way down into the Delta? 
That's why we're asking ourselves do we see toxicity in the 
food chain and the fish? If we do, then we'll go back and 
identify the contaminant and then move our way up into--one of 
the tools is regulatory process to reduce the use or eliminate 
that.
    Mr. Cardoza. I guess I want to hone in on this a little bit 
because do you think that's a greater threat to fish 
populations than five or six junkers who lose their entire load 
of antifreeze in the river? And I guess those are the kinds of 
questions, is anyone studying the other effects because I see 
it happening. I see an increase in that population of problem 
and I wonder if those other things are being considered as part 
of the study.
    I want to piggy back this with my second question which was 
really what I wanted to sort of delve into was is there any 
other activities that we should be looking at, is there other 
studies that we should be conducting to find out other 
potential causes? Because I really want to know the truth. I 
don't want to know that we're going to focus all our attention 
on pumping when that's a 6 percent problem and there's a 94 
percent problem over here that we're not addressing.
    Now if it's pumping, let's deal with it. But if it's 
toxins, let's focus on that. And I want to know which toxins 
and how to deal with it in order to make good policy decisions. 
And that's the frustrating part that I have most commonly is 
I'm not convinced that we're looking in the right areas and I 
guarantee you all that when we find the right areas, I'll join 
with whatever side it is to make sure that we have a healthy 
Delta. There's no question. Mr. Miller is absolutely right 
about that.
    We, and the world, deserves a healthy Delta. The question 
is are we looking in the right places to find out what's making 
it sick?
    Mr. Armor. I just want to follow up on one that Rich 
alluded to. We're doing bioassays. We're collecting water from 
across the Delta. And as we're looking, and we're doing this 
across the whole year. Last year, we were only able to do it 
during a short period of time. If there's a toxic event 
occurring in an area, hopefully, this will pick it up and will 
help us go back and start pinpointing it and we will start 
zeroing in on that. With the use of the TIEs that will help us 
hopefully identify the toxicant so that we can even more zero 
in on it. And once we start identifying these events, we will 
start focusing down on them, but we're looking across the whole 
Delta right now to see what's going on in the broad scale and 
if we find stuff, yes, we're going to focus in on it and go 
after it.
    Mr. Cardoza. In closing, I remember when I was living on 
the Delta when I was living on the Sacramento River and that 
was particularly low one year and I blew out the propellers on 
my boat going across a sand bar. I spent a few hours watching 
the river go by that day and I will tell you that I saw on more 
than one occasion automobile and boat batteries sitting in the 
bottom of the river. And it makes me wonder if these are lead 
problems or it really makes you wonder as we as a society use 
that wonderful estuary as a dump site, is that causing problems 
that you're not looking at because we're so focused and all the 
money and the studies are going into flows or this or that.
    What are we doing on those other fronts? And I just don't 
know that we've gotten great answers on that today.
    Mr. Breuer. I'd say we're not being tunnel-visioned in our 
look at contaminants. I think we're tapping all of those 
agencies and experts, both in the bay and the Delta that have 
on short-term and long-term monitoring permits to try to 
identify these issues.
    And sometimes something seems very dramatic like a car 
battery or whatever, but you also have to remember that even in 
a low-flow period, there's tremendous dilution that goes on and 
so an event like that may seem significant, but in the overall 
total volume in the Delta and the eventual concentration that 
might reach into the food chain or in the fish, it actually 
means very little.
    Mr. Cardoza. When you talk about the pyrethroids, for 
example, does that same dilution apply to them and what, when 
you're measuring the levels in fish, is it small parts per 
billion or are you seeing accumulations that are significant?
    Mr. Breuer. As I said, one of the challenges of pyrethroids 
is they don't easily mix in the water column. They like to hold 
on to soil particles. And so we don't see, you not going to 
easily find that. If we just test the water, you may not see 
it.
    Mr. Cardoza. You're not finding them in the fish livers or 
in the--you reported earlier that there was damage to some of 
the fish livers and you're not finding that?
    Mr. Breuer. What may be causing that is not clear. It could 
be--that's the problem with the histopathology that it could be 
both stress from food issue or it could be from the actual 
contaminant causing the acute effect, but like I said, a lot of 
these chemicals, especially agricultural chemicals, they don't 
accumulate and stay long-term in the environment. They have 
shorter, what's called a half life where they break down 
quickly into more natural or organic components as opposed to 
the long-chain chemicals we used to have in the organic 
chlorines.
    The Chairman. The Members of the Committee have expressed 
an interest in submitting questions in writing. Those questions 
will be submitted to you and if you could answer them in 
writing so that they can be included as part of the hearing 
record.
    We will hold the hearing record open for 10 business days 
to allow you the opportunity to respond to those questions in 
writing.
    If there is further testimony, I know that a number of 
people that are here today had expressed an interest in 
commenting on the hearing and on the topic of this hearing. If 
anyone would like to submit testimony, written testimony to the 
Committee, we will hold the record open for 10 business days to 
allow you to opportunity to do that. If you could pleas submit 
those comments to the Committee on Resources, 1324 Longworth 
House Office Building in Washington, D.C. or fax them to 202/
226-6953. But I believe the easiest thing to do would be to go 
on resourcescommittee.house.gov and that has all of the 
information on it for anybody who would like to submit 
testimony.
    Again, I would like to thank our witnesses for their 
testimony today, for doing the best they could in answering the 
Committee's questions.
    I thank my colleagues for being here today and 
participating in this hearing. Obviously, this is a complicated 
issue. It is not going to be boiled down to 30 second sound 
bytes, nor is it something that could be settled by going after 
one particular problem or another.
    I think we all learned a lot here today about where we are 
in terms of the science that's been collected and what some of 
the questions are. I know I have questions in my mind that we 
need to pursue as we move forward on this and I'm sure the 
other Members of the Committee do as well.
    Again, thank you. Thank the Members of the Committee.
    If there is no further business before the Committee, I 
again thank the Members of the Committee and our witnesses and 
the Committee stands adjourned.
    [Whereupon, at 10:30 a.m., the hearing was concluded.]

    [Additional information submitted for the record follows:]

    [A statement submitted for the record by the American 
Sportfishing Association follows:]

               Statement submitted for the record by the 
                   American Sportfishing Association

    The American Sportfishing Association (ASA) appreciates the 
opportunity to submit the following statement for the record to the 
House Committee on Resources at its February 27, 2006, field hearing to 
examine the Declining Fisheries Populations in the San Francisco Bay- 
San Joaquin Delta.
    The American Sportfishing Association (ASA) is the National Trade 
Association for Sport Fishing headquartered in Alexandria Virginia. It 
unites more than 650 members of the sportfishing and boating industries 
with state fish and wildlife agencies, federal land and water 
management agencies, conservation organizations, angler advocacy groups 
and outdoor journalists. The American Sportfishing Association 
safeguards and promotes the enduring social, economic and conservation 
values of sportfishing.
    The ASA appreciates the Resources Committee interest in examining 
the causes of the dramatic decline in the Delta fisheries. The 
Association is deeply concerned about the declines in these fisheries 
and believes that a strong commitment is required to fix the problems 
and begin the restoration of the resident delta fish populations 
including the delta smelt, striped bass, threadfin shad and longfin 
smelt. We believe the same commitment should cover those species of 
fish that migrate through the Delta and are heavily impacted by its 
health including the endangered winter run chinook salmon, the spring, 
fall and late fall runs of chinook salmon, steelhead trout, American 
shad and white sturgeon.
    The ASA understands that there are several factors that have 
contributed to the decline of the Delta species. We applaud the 
scientific efforts to isolate these factors and to develop corrective 
actions. However, we believe that there is little debate that early 
water development did not take into account its impact on fisheries, 
and has therefore been a driving factor in devastating the fish runs. 
There has been more than forty years of fish population declines 
associated with water development. These declines occurred long before 
exotic species and other factors now affecting the Delta were in 
existence. One only has to examine the recovery plan for the endangered 
winter chinook salmon to understand the linkage between water 
development and fishery declines. The winter run is recovering. It is 
doing so primarily because those water development projects that were 
severely impacting the fish have been addressed. These include 
modifications to the State and Federal Delta pumping schedules, the 
repair of Shasta Dam to avoid lethal water temperatures in the spawning 
grounds, the opening of Red Bluff dam to allow fish passage and the 
screening of water diversions to avoid juvenile fish kills. These 
changes solved many of the fish problems with little or no impact on 
water deliveries for other uses. We urge that the Delta fish problems 
be addressed before other water development plans are considered or 
implemented. We are concerned that there may be attempts to abandon 
fish considerations as various interests move to secure water. We 
encourage the Resources Committee to maintain the balance so that 
whatever steps are taken involve the recovery of the Delta fish as an 
equal objective to any other considerations.
    Until the last few years, a number of the Delta and Central Valley 
fish species were recovering from years of decline. The American 
Sportfishing Association credits two Federal Acts as the primary 
vehicles which brought this recovery about.
    In 1992, the Central Valley Project Improvement Act made the 
maintenance of fish runs an equal objective to the other parts of the 
original Act which included water development for agriculture, water 
for municipal use and flood control. As a result, many fish runs have 
steadily improved. The 1992 changes had strong public support in 
California and we believe this support remains equally strong today.
    The Endangered Species Act had a great impact in saving the 
Sacramento River winter run of chinook salmon. In 1992, just a few 
years after the fish had been declared endangered, only 191 fish 
returned to the upper river to spawn compared with more than 50,000 in 
the 1940s and 1950s. Last year, in 2005, the runs reached a modern day 
record of more than 15,000 fish. The Endangered Species Act resulted in 
modifications to several projects and led to the implementation of a 
number of very positive river changes that allowed improved spawning.
    Fish and fishing are big business in California. At $4.9 billion 
dollars annually, California ranks second in the country in economic 
impact from sportfishing, exceeded only by Florida. California has 2.4 
million anglers who fish 26.6 million angler days per year. All of this 
results in an economic impact of $2.4 million in direct expenditures, 
$1.2 million in salaries and wages, 43,130 jobs, and $456 million in 
state and federal taxes each year. With improved fisheries this impact 
would undoubtedly greatly increase.
    Most of the fishing in California is in Northern California. Trout 
are the primary species targeted, followed by bass, salmon, striped 
bass, kokanee and other fresh and salt water species. Hundreds of small 
California coastal and mountain communities rely on fishing as their 
primary economic engine.
    Sportfishing is the 4th most popular outdoor activity in America. 
It is exceeded only by recreational walking, recreational driving, 
swimming and picnicking. Fishing dwarfs activities like golf, hunting 
and motorcycling. Approximately 45 million people fish each year. One 
in ten Americans owns a fishing license. Given the importance of 
sportfishing to the American way of life, as well as its economic 
impact, we appreciate the attention the committee is giving these 
issues. We look forward to working to resolve these issues fairly for 
all parties.
    Thank you for your consideration of our comments.
                                 ______
                                 
    [A letter and report submitted for the record by William 
(BJ) Miller, Consulting Engineer, Berkeley, California, 
follows:]

                           February 26, 2006

The Honorable Dennis Cardoza
House of Representatives
Washington, DC 20515

Dear Congressman Cardoza,

    Thank you for your interest and engagement in the important issues 
we're faced with in the delta. The following is a response to some of 
the questions that you have raised. In addition I have attached a White 
Paper on the decline of the Delta Smelt. For the reasons set forth 
below, we believe the 2006-2007 Pelagic Organism Decline (POD) Work 
Plan requires a sharpening of focus to increase the chances of 
identifying and correcting problems and to ensure cost-effective 
expenditure of public funds on this important problem.
The POD involves only four fish caught in the Fall Midwater Trawl 
        survey and zooplankton in a limited range
    The POD effort began with the perception of a recent ecosystem-wide 
decline of pelagic (open water) organisms in the Bay/Delta system. On 
closer inspection, there was no evidence of a recent system-wide 
decline in phytoplankton (small floating plants) and bacteria at the 
base of the pelagic food chain. Initial impressions of a system-wide 
decline in zooplankton (small floating animals) were based on incorrect 
data. There appears to be a zooplankton decline, but only in the 
western Delta and downstream. Data on fish abundance from the Bay 
Survey in San Francisco Bay did not show general declines. So, the POD 
problem actually involves declining abundance of four fish species 
(delta smelt, juvenile striped bass, longfin smelt and threadfin shad) 
in the Fall MidWater Trawl (FMWT) survey and zooplankton in only part 
of the estuary.
The POD program should focus on delta smelt as the key Bay-Delta 
        species
    The FMWT surveys most of the range of the threatened delta smelt, 
and everyone agrees the total population of this key species has 
declined. So, the POD effort should concentrate on delta smelt, the 
most important of the four species. As regards the remaining three 
species:
    <bullet>  Striped bass are voracious introduced predators on native 
species, and juvenile abundance in the FMWT does not correlate with 
adult abundance. So, the significance of a decline of juvenile bass in 
the FMWT is questionable.
    <bullet>  Longfin smelt range far downstream from the FMWT survey 
area, out into the open ocean. Abundance of longfin smelt has increased 
in the Bay Survey conducted downstream from the FMWT. Declining 
abundance of longfin in the FMWT may represent a shift in their 
population distribution rather than a decline in their total 
population.
    <bullet>  The introduced threadfin shad range far upstream from the 
FMWT survey area. Declining abundance of threadfin shad in the FMWT 
does not necessarily mean the total population of this wide-ranging 
introduced species has declined.
    So, all we can say with certainty is that there has been a decline 
in abundance of one fish, the delta smelt, and zooplankton in the 
western Delta and Suisun Bay.
Success of the POD program requires a focus on factors other than water 
        exports
    In most years, some adult and juvenile delta smelt are entrained in 
CVP and SWP export pumps. However, despite years of effort analyzing 
decades of data, nobody has produced an analysis indicating that export 
pumping (or any measure of entrainment) and is important to the year-
to-year or long-term changes in the key FMWT abundance of delta smelt.
    In contrast, there is strong evidence that delta smelt are limited 
by inadequate food supply in late summer. At that time, the vast 
majority of delta smelt live near the confluence of the Sacramento and 
San Joaquin Rivers and further downstream. For years, there has been a 
mystery as to why the abundance of juvenile smelt in the summer, as 
measured by the Summer Townet (STN) survey, was not a predictor of the 
abundance of sub-adult delta smelt as measured just a few months later 
in the FMWT. This lack of correlation between summer juveniles and fall 
sub-adults means that the FMWT index is primarily controlled by events 
in late summer and not by factors, such as exports, acting earlier in 
the year. The fact that delta smelt are in areas more than thirty river 
miles from the export pumps at that time offers some hint as to why 
water exports are not important to delta smelt abundance in the fall. 
In contrast, Professor Bennett (UC Davis) found that delta smelt caught 
in the STN have depleted levels of glycogen in their livers, indicative 
of starvation. Based on this information, the POD effort should 
concentrate on the following factors affecting delta smelt abundance in 
late summer:
1. Food availability
    At this time, the introduced zooplankton species Pseudodiaptomus 
forbesii is one of the main foods of delta smelt. The core delta smelt 
habitat is in the Sacramento and San Joaquin Rivers near their 
confluence, near Chipps Island, and Suisun Bay. July STN abundance of 
delta smelt in those areas of the core habitat with adequate abundance 
of Pseudodiaptomus correlates with FMWT abundance of delta smelt better 
that any other variable studied to date. In fact, it is the only good 
correlation anyone has found between the FMWT abundance index and 
factors acting before the fall. In other words, if many delta smelt are 
in areas where Pseudodiaptomus are abundant, many smelt survive to the 
fall and the FMWT index is likely to be high. Otherwise, the FMWT index 
will probably be low. Therefore, declining abundance of Pseudodiaptomus 
in recent years bodes ill for delta smelt. The causes of the 
Pseudodiaptomus decline should be a major focus of the POD effort, 
because this is likely to be an important factor in the decline of 
delta smelt.
2. Toxic effects
    In recent years, pyrethroid insecticide use has increased sharply 
in California. Pyrethroids, and microcystins released by the algae 
Microcystis aeruginosa that is increasingly common in the Delta, are 
both toxic to zooplankton and fish. Late summer and fall toxic effects 
of pyrethroids and microcystins on Pseudodiaptomus and delta smelt in 
the core delta smelt habitat should be another major focus of the POD 
program.
3. Other aliens
    Other alien species are also candidates for investigation. The Amur 
River clam has migrated upstream and could be affecting Pseudodiaptomus 
in the core delta smelt habitat. Several other species have recently 
been discovered, and they could be competing with or preying on delta 
smelt.
4. Powerplant effects
    Two large powerplants in Contra Costa County draw large volumes of 
cooling water from the estuary, right in the heart of delta smelt 
habitat. The associated effects of entrainment and discharge of heated, 
chemically-treated water on delta smelt and their zooplankton prey must 
be emphasized in the POD program.
The POD effort must avoid an overemphasis on export effects
    Dr. Bryan Manly is widely recognized as one of the world's leading 
statisticians. As part of the POD program, Dr. Manly did an exhaustive 
series of statistical analyses under the supervision and direction of 
the U.S. Department of Interior. As a result of those analyses, Dr. 
Manly concluded, on January 25, 2006:
        ``...although there are significant effects of hydrological and 
        export variables on delta smelt, these seem non-linear (good 
        and bad) and do not seem to be able to explain the main long-
        term trends in delta smelt numbers. By that I mean that the 
        hydrology and export effects seem to produce small wiggles on 
        the trend lines. This is not saying that the effects are not 
        statistically significant. It is saying that the effects don't 
        seem to be important compared to other things going on.'' 
        (emphasis added)
    Based on Dr. Manly's conclusion, there should be concerns that 
continued emphasis on studies of export effects by the POD program will 
detract from the effort to find the true causes of the delta smelt 
decline and other biological problems in the Bay-Delta system. In my 
opinion, if exports are to continue to be one of the two primary 
focuses of the POD studies, someone should at least be able to produce 
a credible analysis, using the decades of data at our disposal, that 
exports have important effects on delta smelt abundance. Neither we nor 
Dr. Manly nor several other researchers have been able to do that.

                             Respectfully,

                            Dr. B.J. Miller

    [A report submitted for the record and prepared by Dr. B.J. Miller 
entitled ``The State of the Delta: What is Killing the Delta Smelt?'' 
dated January 2006 follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 ______
                                 
    [A letter submitted for the record by Daniel G. Nelson, 
Executive Director, San Luis & Delta-Mendota Water Authority, 
follows:]

                             March 9, 2006

The Honorable Dennis Cardoza
House of Representatives
Washington, D.C. 20515

Dear Mr. Cardoza,

    Thank you for the opportunity to submit the following comments as a 
follow-up to the February 27 meeting of the House Resources Committee 
in Stockton, CA. Testimony presented during the hearing revealed that 
from a purely scientific perspective, very little is known about the 
cause or causes of declining abundance of some pelagic species in the 
Sacramento-San Joaquin River Delta. The hearing also revealed that an 
inordinate amount of money has been spent on actions taken to force 
curtailment of water exports.
    What is known is that export curtailments have accounted for 
approximately 100 times more spending than that which has been spent 
for studies/remedies of other noted potential factors in the decline of 
the Delta smelt.
    See attached table:


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    After the expenditure of millions of dollars and the dedication of 
millions of acre-feet of water through pumping curtailments, it has 
become evident that past finger-pointing at water exports being the 
major cause of declining abundance of some pelagic species has done 
little, if anything, to promote the recovery of these species. 
Unfortunately, monies spent in attempting to validate water exports as 
the culprit can never be recovered, and on February 27 Dr. Bryan Manly, 
an expert statistician working for the pelagic organism decline (POD), 
reported that the information derived from this focus on exports has 
been ``unimportant.''
    It is important to recognize that the cost has been high in 
insisting that exports were the cause. In addition to the cost of 
conducting research focused on exports, millions of dollars have been 
spent by the Environmental Water Account (EWA) for Delta smelt 
protection. The EWA is a program whereby water is purchased (by the 
State and Federal governments) to repay the State Water Project (SWP) 
and the Central Valley Project (CVP) for exports foregone to protect 
Bay-Delta fish. Since 2001, the SWP and the CVP exports have been 
reduced by about 1.4 million-acre-feet by the EWA for Delta smelt 
protection.
    When water exports are reduced to provide protection for the Delta 
smelt under previous scenarios, the effect has been serious for our 
water users. In addition to the EWA export reductions, the Federal 
Central Valley Project has also foregone additional exports through the 
Central Valley Project Improvement Act ``B2'' provision. Since 1999 the 
CVP has lost over 1.4 million-acre-feet of water to protect the Delta 
smelt. Unlike the EWA program, this lost water is not repaid. 
Consequently, there have been almost 3 million-acre-feet of export 
reductions made to protect Delta smelt during this time. Efforts by 
these water users to make up a portion of this lost water supply 
results in higher water costs that create a domino effect on the 
economic livelihood of all Californians. Any delay in redirecting 
science-based research will only serve to continue this crippling 
effect on all Californians.
    A summary of costs dictated as a result of export curtailments is 
startling. A conservative combined total of over $217,000,000 in 
expenditures was required by water users and State and Federal agencies 
for a theory that has proved questionable. During this same time, a 
relative meager amount of attention and money was being spent on 
studying / remedying other factors such as toxics, food deprivation and 
power plant operations.
    Serious questions must be asked and answered if a resolution to 
this crippling issue of a declining abundance is to be reached. We can 
no longer afford to chase a ``preferred'' solution, such as reducing or 
eliminating water exports, when the science does not support such an 
approach.
    Why has it taken so long to determine that the availability of 
food, especially during the summer months near the confluence of the 
Sacramento and San Joaquin rivers, is a limiting factor for at least 
one pelagic species, the Delta smelt? These data have been available in 
various studies for a number of years, yet those coordinating efforts 
to find a solution have ignored this valuable information.
    A closer look at the food limitation issue reveals a serious 
decline in a small floating animal, Pseudodiaptomus forbesi, which is a 
key food source for the Delta smelt. We do not know the effect of 
possible contaminants in the waterway to this valuable food source 
because no one has researched the issue. Isn't it time that such a 
directive be given?
    Another potential limiting factor that has been ignored is the 
diversion of water by power plants located on the edge of the estuary. 
The water is an integral part of the power generating process but to 
allow this action to take place without documenting any affect it might 
have on smelt populations is unacceptable. A thorough study should be 
undertaken immediately to determine the effect these power plants have 
on smelt populations.
    Focusing on water exports as the major cause of declining abundance 
of some pelagic species has served no purpose other than to demonstrate 
that the problem lies elsewhere. This agency-directed research 
indicates, contrary to what many had hoped, that water exports are not 
the culprit.
    Tough questions must be asked in your quest to find out why so much 
time and money has been spent on attempting to place the blame on water 
exports as the leading cause. More important, however, is the need to 
find what is causing the Delta smelt decline.
    California water users join with you in searching for the cause and 
in asking these tough questions:
    1. When will studies be initiated to determine the true status of 
the smelt's food supply---Pseudodiaptomus forbesi?
    2. What effects, if any, do suspected contaminants and other 
factors have on the smelt food supply?
    3. What effects, if any, does the operation of power plants in the 
Delta region have on the smelt population?
    Again, thank you for your commitment to finding the solution to the 
declining population of the Delta smelt.

                               Sincerely,

                            Daniel G. Nelson

                           Executive Director

cc: Board of Directors & Member Agencies
                                 ______
                                 
    [A letter submitted for the record by Spreck Rosekrans, 
Senior Analyst, Environmental Defense, follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 <all>

</pre></body></html>
